<html>
<title> - EVENT HORIZON TELESCOPE: THE BLACK HOLE SEEN ROUND THE WORLD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        EVENT HORIZON TELESCOPE:
                  THE BLACK HOLE SEEN ROUND THE WORLD

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2019

                               __________

                           Serial No. 116-19

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-301PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f1819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>               

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                        
                        
                        C  O  N  T  E  N  T  S

                              May 16, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written statement............................................     8

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................     9

                               Witnesses:

Dr. France Cordova, Director, National Science Foundation
    Oral Statement...............................................    11
    Written Statement............................................    13

Dr. Sheperd Doeleman, Director, Event Horizon Telescope; Center 
  for Astrophysics - Harvard & Smithsonian
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Colin Lonsdale, Director, MIT Haystack Observatory
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Katherine Bouman, Postdoctoral Fellow, Center for 
  Astrophysics - Harvard & Smithsonian
    Oral Statement...............................................    36
    Written Statement............................................    38

Discussion.......................................................    45

             Appendix I: Additional Material for the Record

List of authors submitted by Representative Bill Foster, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    76

 
                        EVENT HORIZON TELESCOPE:
                  THE BLACK HOLE SEEN ROUND THE WORLD

                              ----------                              


                         THURSDAY, MAY 16, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Johnson. Good morning. This hearing will come to 
order. And without objection, the Chair is authorized to 
declare recess at any time.
    We're delighted to see everyone this morning and welcome to 
our witnesses. I'm eager to hear more about this exciting 
breakthrough. Not long ago, scientists were not sure black 
holes were real. Even Einstein had his doubts. Scientists have 
since uncovered evidence of black holes, but they had no way to 
capture an image until the Event Horizon Telescope.
    In science, most knowledge is gained incrementally. From 
efforts to peer into the far reaches of the universe, to 
experiments conducted at the smallest scale, our collective 
understanding of the world around us is built piece by piece. 
Each hard-earned discovery brings reality into better focus.
    Every once in a while, a discovery will jolt us forward. 
Such breakthroughs generate entirely new avenues and tools for 
scientific study and a new appreciation for what we can 
achieve. The black hole image captured by the Event Horizon 
Telescope is both a jolt and the culmination of decades of 
incremental advances, most of which were made possible by the 
National Science Foundation (NSF).
    The dark shadow bounded by a ring of light may look simple 
enough, but don't be fooled. The first-ever image of a black 
hole is a groundbreaking advancement in science, setting the 
stage for a new era of black hole astronomy. This new Earth-
sized telescope also opens up a new window for observation of 
other astronomical objects and may further our understanding of 
gravity and the evolution of galaxies.
    An enormous amount of effort went into clearing the 
necessary technological, logistical, political, and scientific 
hurdles. While there was never a guarantee that this project 
would succeed, the National Science Foundation invested in a 
good idea with potentially enormous payoff. This achievement 
demonstrates that when the Federal Government invests in our 
Nation's best and brightest and in the facilities necessary to 
do cutting-edge science, and, importantly, remains committed to 
those investments, we are limited only by our imaginations.
    I congratulate each of our witnesses and the entire Event 
Horizon Telescope team on this astonishing achievement.
    Another important part of this story is the international 
partnership. This discovery would not have been possible 
without contributions from partners around the world, including 
from Spain, Chile, Mexico, Europe, Taiwan, China, South Korea, 
and Japan. At a time of rising global tensions, let this be a 
reminder that the pursuit of science is still a unifying force.
    Perhaps the most lasting impact of this discovery will be 
the inspiration for students to pursue STEM (science, 
technology, engineering, and mathematics) studies. The 
excitement of this discovery has no doubt instilled a hunger 
that will drive the next generation of scientists to make 
discoveries of their own. Today, we celebrate your success. I 
look forward to learning more about this incredible image, the 
global team that made it possible, and future plans for the 
Event Horizon Telescope.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to today's hearing.
    Welcome to our witnesses. I am eager to hear more about 
this exciting breakthrough. Not long ago, scientists were not 
sure black holes were real. Even Einstein had his doubts. 
Scientists have since uncovered evidence of black holes, but 
they had no way to capture an image until the Event Horizon 
Telescope.
    In science, most knowledge is gained incrementally. From 
efforts to peer into the far reaches of the universe, to 
experiments conducted at the smallest scale, our collective 
understanding of the world around us is built piece by piece. 
Each hard-earned discovery brings reality into better focus. 
Every once in a while, a discovery will jolt us forward. Such 
breakthroughs generate entirely new avenues and tools for 
scientific study, and a new appreciation for what we can 
achieve. The black hole image captured by the Event Horizon 
Telescope is both a jolt and the culmination of decades of 
incremental advances, most of which were made possible by the 
National Science Foundation.
    The dark shadow bounded by a ring of light may look simple 
enough, but don't be fooled. The first-ever image of a black 
hole is a groundbreaking advancement in science, setting the 
stage for a new era of black hole astronomy. This new Earth-
sized telescope also opens up a new window for the observation 
of other astronomical objects and may further our understanding 
of gravity and the evolution of galaxies.
    An enormous amount of effort went into clearing the 
necessary technological, logistical, political, and scientific 
hurdles. While there was never a guarantee that this project 
would succeed, the National Science Foundation invested in a 
good idea with potentially enormous payoff. This achievement 
demonstrates that when the Federal government invests in our 
nation's best and brightest, and in the facilities necessary to 
do cutting-edge science - and importantly, remains committed to 
those investments - we are limited only by our imaginations. I 
congratulate each of our witnesses and the entire Event Horizon 
Telescope team on this astonishing achievement.
    Another important part of this story is the international 
partnership. This discovery would not have been possible 
without contributions from partners around the world, including 
from Spain, Chile, Mexico, Europe, Taiwan, China, South Korea 
and Japan. At a time of rising global tensions, let this be a 
reminder that the pursuit of science is still a unifying force.
    Perhaps the most lasting impact of this discovery will be 
the inspiration for students to pursue STEM studies. The 
excitement of this discovery has no doubt instilled a hunger 
that will drive the next generation of scientists to make 
discoveries of their own.
    Today we celebrate your success. I look forward to learning 
more about this incredible image, the global team that made it 
possible, and future plans for the Event Horizon Telescope.

    Chairwoman Johnson. I now will recognize Mr. Lucas for his 
statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
hearing, and thank you to all our witnesses for coming to 
discuss this incredible discovery.
    Since Einstein predicted the existence of black holes, 
scientists have been able to observe their effects and refine 
theories on how they affect our universe, but this is the first 
time we've been able to see a black hole directly, and it marks 
a huge milestone in our understanding of the universe.
    We have this first-ever image of a black hole thanks to a 
pioneering collaboration between observatories around the 
world. To detect an image of a black hole we needed a telescope 
as big as our entire planet. Not surprisingly, building that 
was out of the question. But every challenge presents an 
opportunity.
    And science funded by the National Science Foundation 
joined forces with astronomers, data scientists around the 
world to coordinate their observations, in effect, creating a 
global telescope. This is a great example of NSF's approach to 
basic research and driving scientific progress.
    And, as Dr. Cordova told this Committee just last week, 
NSF's 10 Big Ideas are about enabling research that crosses 
scientific disciplines to make big discoveries. NSF's 
coordinated and interdisciplinary approach has already produced 
two groundbreaking discoveries in its ``Window on the 
Universe,'' first the detection of gravitational waves by LIGO 
(Laser Interferometer Gravitational-Wave Observatory) and now 
this image of a black hole.
    I want to put these achievements in perspective. When 
Einstein predicted the existence of gravitational waves, he 
also questioned whether these ripples in space-time could ever, 
ever be observed on Earth. The signals are so small, traveling 
over such an enormous distance, that he doubted whether we 
would ever be able to create instruments sensitive enough to 
detect them. But now, 100 years later, technology funded by the 
NSF, developed over decades, makes it possible for us to 
confirm this fundamental prediction.
    That matters not only because it helps us understand the 
universe in which we live, also because it contributed to the 
creation of other technologies that directly affect scientific 
progress, including semiconductors that our cellphones and 
computers use more powerful.
    The NSF's investments in ground-based astronomy have also 
given birth to technologies used in everything from airport 
security to Lasik eye surgery.
    But the scientists these projects have produced may be the 
greatest return on our investment. Hundreds of graduate 
students worked on this discovery, and their careers will be 
informed by this experience. And thousands of young students 
who watched this announcement may be inspired to pursue careers 
in STEM. These are whole generations of new discoverers that 
will contribute to scientific knowledge and American progress.
    We don't yet know all the ways in which the Event Horizon 
Telescope will broaden our knowledge of the universe or our 
technological development here on Earth, but it's certain that 
this image is just the beginning of what's to come.
    I'm looking forward to learning more about this from our 
witnesses, what their discoveries teach us about the universe, 
what lessons we can take away from how to coordinate basic 
research in the U.S., and what's next for this project.
    Thank you for being here, and I yield back the balance of 
my time, Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson, for holding this hearing and 
thank you to all our witnesses for coming to discuss this 
incredible discovery.
    After Einstein predicted the existence of black holes, 
scientists have been able to observe their effects and refine 
theories on how they affect our universe.
    But this is the first time we've been able to see a black 
hole directly, and it marks a huge milestone in our 
understanding of the universe.
    We have this first-ever image of a black hole thanks to a 
pioneering collaboration between observatories around the 
world. To detect an image of a black hole we needed a telescope 
as big as our entire planet. Not surprisingly, building that 
was out of the question.
    But every challenge presents an opportunity.
    Scientist funded by the National Science Foundation joined 
forces with astronomers and data scientists around the world to 
coordinate their observations-in effect, making a global 
telescope.
    This is a great example of how NSF's approach to basic 
research is driving scientific progress.
    As Dr. Cordova told this Committee just last week, NSF's 10 
Big Ideas are about enabling research that crosses scientific 
disciplines to make big discoveries.
    NSF's coordinated and interdisciplinary approach has 
already produced two groundbreaking discoveries in its "Window 
on the Universe"-first the detection of gravitational waves by 
LIGO and now this image of a black hole.
    I want to put these achievements in perspective. When 
Einstein predicted the existence of gravitational waves, he 
also questioned whether these ripples in space-time could ever 
be observed on Earth.
    The signals would be so small, traveling over such an 
enormous distance, that he doubted whether we would ever be 
able to create instruments sensitive enough to detect them.
    But 100 years later, technology funded by NSF, developed 
over decades, made it possible for us to confirm this 
fundamental prediction.
    That matters not only because it helps us understand the 
universe in which we live, but also because it has contributed 
to the creation of other technologies that directly affect 
scientific progress-including semiconductors that make our 
cellphones and computers more powerful.
    NSF's investments in ground-based astronomy have also given 
birth to technologies used in everything from airport security 
to Lasik eye surgery.
    But the scientists these projects have produced may be the 
greatest return on our investment. Hundreds of graduate 
students worked on this discovery, and their careers will be 
informed by this experience. And thousands of young students 
who watched this announcement may be inspired to pursue careers 
in STEM. These are whole generations of new discoverers that 
will contribute to scientific knowledge and American progress.
    We don't yet know all the ways in which the Event Horizon 
Telescope will broaden our knowledge of the universe or our 
technological development here on Earth. But it's certain that 
this image is just the beginning of what's to come.
    I'm looking forward to hearing more about this from our 
witnesses-what this discovery teaches us about our universe, 
what lessons we can take away about how to better coordinate 
basic research in the U.S., and what's next for this project.
    Thank you for being here, and I yield back the balance of 
my time.

    Chairwoman Johnson. Thank you, Mr. Lucas.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    And at this time, I'll introduce our witnesses. Our first 
witness will be Dr. France Cordova. Dr. Cordova was confirmed 
as the 14th Director of the National Science Foundation in 
2014. She's President Emeritus of Purdue University. I think we 
might have some people here on this Committee who might be a 
little biased for Purdue--and Chancellor Emeritus of the 
University of California at Riverside.
    Previously, she was Chief Scientist at the National 
Aeronautics and Space Administration. Dr. Cordova also headed 
the Department of Astronomy and Astrophysics at Pennsylvania 
State University and was Deputy Group Leader in Earth and Space 
Sciences at the Los Alamos National Laboratory.
    She received her bachelor of arts from Stanford, her 
doctorate in physics from California Institute of Technology.
    And our next witness is Dr. Sheperd Doeleman. Dr. Doeleman 
is Director of the Event Horizon Telescope and an 
astrophysicist at the Harvard & Smithsonian Center for 
Astrophysics. He's also a Harvard Senior Research Fellow and 
project co-leader of the Harvard Black Hole Initiative.
    He received his bachelor's of arts degree from Reed College 
and his Ph.D. in astrophysics from MIT.
    Our third witness is Dr. Colin Lonsdale. Dr. Lonsdale is 
the Director of the MIT Haystack Observatory, where he has 
worked as a radio astronomer for 32 years. He's been heavily 
involved in the development of new techniques and instruments 
in radio astronomy, including the VLBI (very-long-baseline 
interferometry). He's been involved in the EHT (Event Horizon 
Telescope) project from its early days. He also serves on the 
governing Board of the international EHT Collaboration, is Vice 
Chair and member of the Board Executive Group.
    He received his bachelor of science from St. Andrews 
University in Scotland and his Ph.D. in radio astronomy from 
Nuffield Radio Astronomy Labs in England.
    Our final witness is Dr. Katherine Bouman. Dr. Bouman is 
currently a postdoctoral fellow at the Harvard & Smithsonian 
Center for Astrophysics. In June 2019 she will be starting as 
an Assistant Professor in the Computing and Mathematical 
Sciences Department at the California Institute of Technology.
    As a member of the EHT collaboration, she worked to develop 
innovative ways to combine techniques from astronomy and 
computer science to construct the first image of a black hole.
    She received her BSE from the University of Michigan and 
her Ph.D. from MIT.
    Our witnesses should know that we will allow each of you 5 
minutes for the spoken testimony. Your written testimony will 
be included in the record for the hearing. When all of you have 
completed your spoken testimony, we will begin questions, and 
each Member will have 5 minutes to question the panel. We'll 
start with Dr. Cordova.

                TESTIMONY OF DR. FRANCE CORDOVA,

             DIRECTOR, NATIONAL SCIENCE FOUNDATION

    Dr. Cordova. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for holding this hearing 
and for the opportunity to discuss the Event Horizon Telescope, 
or EHT, collaboration and the resulting first image of a 
supermassive black hole. And thank you for your commitment to 
science.
    We're excited by this remarkable accomplishment, one that 
will transform and enhance our understanding of black holes, 
and I'd like to pause for a minute so that we can all in this 
room recognize the representatives of the EHT team.
    [applause].
    I want to focus my remarks today on EHT's history with the 
National Science Foundation, the vision and support of so many 
dedicated researchers, and what this discovery means for the 
future of scientific research. Black holes have captivated the 
imaginations of scientists and the public for decades. No 
single telescope on Earth has the sharpness to create an image 
of a black hole. This team did what all good researchers do; 
they innovated. The EHT observation synchronized telescope 
facilities around the world to form one huge Earth-sized 
telescope.
    While this technique, called very long baseline 
interferometry, or VLBI, was initially supported by NSF in the 
late 1960s. The EHT team took it to a whole new level. They 
developed the extraordinary sharpness and sensitivity required 
to image a black hole.
    Enabled by technology, observations have always advanced 
our understanding of the universe, and that is why, for more 
than 30 years, NSF has supported technology development for 
astronomy through the advanced technologies and instrumentation 
program. This program supported EHT with eight separate awards 
that got the project started and sustained its early 
development. Without this early seed funding, the EHT would not 
have succeeded. Thanks to its early support, the EHT project 
grew from a small exploratory group to a large international 
collaboration.
    This discovery would not have been possible without 
cooperation and coordination. Such cooperation is exemplified 
in the telescope in Chile called ALMA (Atacama Large 
Millimeter/submillimeter Array), which was crucial to EHT's 
success. While ALMA is a major NSF-supported facility, it's 
also supported by international partners.
    The success of the EHT also highlights the need for 
midscale research infrastructure, one of NSF's 10 Big Ideas. 
After more than a decade of development and piecemeal funding, 
the EHT was finally reviewed as a whole in our Division of 
Astronomical Sciences Mid-scale Innovations Program where EHT 
received the funding that enabled these observations. Increased 
NSF support of midscale research will enable more effective 
support of comparably sized projects in the future.
    Supporting basic research has tremendous benefits. As an 
example, the methods developed by astronomers in the late 1960s 
for measuring positions of distant galaxies had surprising 
down-to-Earth benefits. These galaxies served as a reference 
for measuring imperceptible changes in the orientation and 
rotation of the Earth. Such measurements are now used routinely 
to aid modern satellite navigation and the global positioning 
system, GPS. Everyone who uses a smartphone to find directions 
or search for a nearby restaurant or reserve a rideshare 
benefits from astronomy and decades of Federal investment in 
such basic research.
    In producing the first image of a black hole, the EHT has 
generated a global phenomenon. Astronomy is a point of entry 
for young people into STEM. This is incredibly important to our 
Nation's competitiveness and economic success, as science and 
technology are drivers of the economy. Our future prosperity 
depends on inspiring the next generation to be curious to learn 
and explore, and I'm happy to see lots of next-generation 
scientists and engineers in the audience today.
    Astronomy is a source of such inspiration. It's just as 
important that we continue to support the students and postdocs 
as they enter their chosen fields. Their contributions were key 
to the success, and this experience will prepare them to reach 
even further in the future. This discovery is historic for 
astrophysics, it's incredibly meaningful for me personally as 
an astrophysicist.
    NSF exists to enable scientists and engineers to illuminate 
the unknown, to reveal the subtle and complex majesty of our 
universe.
    Thank you again for your continued support for NSF's 
mission and for holding this hearing today and the opportunity 
to testify.
    [The prepared statement of Dr. Cordova follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Johnson. Thank you very much. Dr. Doeleman.

               TESTIMONY OF DR. SHEPERD DOELEMAN,

               DIRECTOR, EVENT HORIZON TELESCOPE,

        CENTER FOR ASTROPHYSICS - HARVARD & SMITHSONIAN

    Dr. Doeleman. Chairwoman Johnson, Ranking Member Lucas, 
Members of the Committee, thank you for the opportunity today 
to describe the recent EHT results and their impact.
    On April 10, 2019, our collaboration held simultaneous 
international press conferences to announce the first image of 
a black hole. And as you see--if you did see this image, you 
were not alone. On the front page of almost every major 
newspaper in the world you could see the bright ring caused by 
light bending in the immense gravity of a supermassive black 
hole that is 6.5 billion times the mass of our sun. It's 
estimated that 4.5 billion people saw these results, all eyes 
focused on the same cosmic wonder at the same time.
    Why did this result resonate with so many people, 
scientists, and the curious public alike? In part it was 
because, for over 100 years, black holes have remained one of 
the greatest mysteries of modern physics. They are gravity run 
amok, a complete collapse of matter into a volume so small that 
nothing, not even light, can escape their gravitational pull.
    And based on growing evidence, we now believe that 
supermassive black holes, with masses of millions or billions 
of times our sun's, exist in the centers of all galaxies, where 
the hot gas that surrounds them can outshine the combined light 
of all the stars in their host galaxy.
    This animation shows how light rays from this hot gas are 
bent by the black hole, shown here outlined in red. Some light 
paths make complete loops around the black hole forming a 
bright circular boundary around the event horizon, the point 
where gravity traps the light, preventing it from reaching us.
    Einstein's equations tell us the precise size and shape of 
this ring, so by measuring this feature for the galaxy M87 
that's 55 million light-years from Earth, the EHT team has put 
Einstein's theories to the most stringent test yet. And this 
image, the highest-resolution picture ever taken from the 
surface of the Earth, is what we saw. It is confirmation of 
Einstein's theory at the edge of a supermassive black hole. It 
allows mathematicians, physicists, astronomers the ability to 
refine their models of how black holes reprocess matter and 
energy on galactic scales.
    In fact, the brightening you see at the bottom of this ring 
is perfectly consistent with near light speed motions of gas 
around the black hole. It also opens a new window on ever more 
precise tests of gravity. This is critical because our theory 
of gravity is incomplete. We have not yet been able to unify 
our understanding of gravity in the quantum world.
    To make this image, we developed specialized 
instrumentation that link together existing radio facilities, 
enabling them to work together as an Earth science telescope. 
We reached across borders, included experts from around the 
globe, and leveraged billions of dollars of international 
resources to deliver extraordinary scientific return on 
investment.
    Support from the NSF was crucial. Before success of this 
project was assured, NSF funding enabled the small U.S. EHT 
team to grow and carry out key proof-of-concept experiments. As 
confidence in the project grew, we attracted additional 
investment from the international science community, which is 
why U.S. groups are in leadership positions within the larger 
collaboration today.
    The EHT collaboration now has over 200 members representing 
60 institutes working in over 20 countries and regions. It 
truly takes a global team to build a global telescope. And 
because the EHT relies on so many technical and theoretical 
advances, there are myriad opportunities for early-career 
researchers to make fundamental and profound contributions. 
Undergraduates, graduate students, postdoctoral fellows, and 
junior staff have taken on leadership roles and 
responsibilities in areas of high-speed electronics design, 
innovative imaging algorithms, and modeling black holes using 
national supercomputer facilities. The EHT footprint across 
STEM fields is exceptionally broad with rich opportunities for 
mentorship.
    Building on this success, we are working with our 
international partners to enhance the EHT. We aim to move 
beyond the still images to making real-time movies of black 
holes, enabling entirely new tests of gravity and extreme 
astrophysics. We will explore purposefully situating new dishes 
to fill out the global virtual telescope and even launch radio 
satellites into orbit to realize an EHT that is not bound by 
the dimensions of the Earth.
    Having worked on the EHT from the earliest stages, I 
experienced a deep sense of fulfillment following the result. 
But in the end, I personally feel the greatest accomplishment 
was assembling an expert and committed team. The look on the 
faces of my colleagues when the first M87 images appeared on 
computer screens will never leave me. A mix of astonishment, 
wonder, pride, awe, and humility. Imaging a black hole for the 
first time has inspired our team, and we hope it has inspired 
you, too.
    Thank you for the opportunity to testify today, and thank 
you for your commitment to keeping the U.S. a global science 
leader. I look forward to answering any questions you may have.
    [The prepared statement of Dr. Doeleman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Johnson. Thank you very much.
    Dr. Lonsdale.

                TESTIMONY OF DR. COLIN LONSDALE,

               DIRECTOR, MIT HAYSTACK OBSERVATORY

    Dr. Lonsdale. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to talk 
to you about how the Event Horizon Telescope works and how its 
truly extraordinary capabilities allowed our team to achieve 
the scientific milestone we're recognizing today.
    A conventional telescope creates an image by focusing light 
from a distant object onto a sensor, much like a digital camera 
with a really long telephoto lens attached. Naturally, the 
bigger the lens, the more detail that you can see. In fact, if 
you can make optically perfect lenses, the magnification you 
can get depends only on how big they are.
    As Dr. Doeleman has already mentioned, since it's so far 
away, the black hole in the galaxy M87 appears extremely tiny 
on the sky, so to see it, you need a really big lens with a lot 
of magnification. So let's take a more careful look at just how 
tiny this black hole is as it appears from the Earth 55 million 
light-years away.
    And I have a short video here. This is what my observatory 
looks like from 25 miles away, and that dome there has a large 
radio telescope inside it and down at the bottom right there's 
a small figure. That figure is Jason SooHoo, who is one of our 
staff members who went to the South Pole actually twice to 
support the EHT. And as we continue zooming in and zooming in, 
we get down to the level of individual human hairs. And if you 
look at an individual human hair under an electron microscope, 
it looks like that, and on this, to scale, that is the size of 
the black hole image. And just to reiterate, if we zoom all the 
way back out, the Event Horizon Telescope can see things much 
smaller than a human hair from a distance of 25 miles. So 
that's a fairly remarkable amount of magnification.
    A conventional optical telescope would need a lens several 
miles across to see such a small object, which is impractical, 
but the EHT is no conventional telescope. The Event Horizon 
Telescope operates with short radio waves, not light, and at 
radio wavelengths our lens must be several thousand miles 
across, in fact, the size of a planet to get such precision. 
The EHT simulates such a lens by combining signals from radio 
dishes thousands of miles apart using computational techniques.
    Imagine that these radio dishes sit directly in front of an 
Earth-sized lens. Radio photons come toward us from the M87 
galaxy. Instead of hitting the giant imaginary lens and being 
focused onto a sensor, some of them are intercepted by our 
dishes. At each dish we capture the photons and record them as 
digital data on ordinary computer disk drives. So far so good. 
But to make images with our simulated lens, we need a lot of 
photons, the more the better. Getting enough photons to image a 
black hole simply has not been technically possible until quite 
recently.
    So how did we do it? Well, first, with strong NSF support, 
we have greatly increased the available dish area at key sites 
like the ALMA array Chile. And second, we, quote, ``listen'' 
for photons at many different radio frequencies simultaneously, 
generating more digital data. The more digital data, the more 
photons. So we record to 128 disk drives in parallel at each 
dish site. It's equivalent to simultaneously downloading 11,000 
full H.D. movie streams from Netflix. This fills up thousands 
of high-capacity disks in one observing campaign, weighing 
several tons.
    Each campaign involves extensive preparation and logistical 
complexity. Talented and dedicated staff from different 
institutions travel to some of the most remote and inhospitable 
places on Earth like the South Pole, driven by a common goal to 
create a unique window into the most extreme environments known 
to science.
    The effort level and unity of purpose is something I 
personally find to be truly inspiring as a tangible 
reaffirmation of the spirit of human curiosity that fuels basic 
research and the quest for knowledge.
    We ship the recorded disks to two locations, my observatory 
in Massachusetts and the Max Planck Institute for Radio 
Astronomy in Bonn, Germany, where the data streams are combined 
in a complex, precise, and computationally intensive process 
known as correlation. Now, correlators simulate what a physical 
lens does, bringing photons that follow different paths to a 
common focal point, synchronized with pinpoint accuracy by 
atomic clocks at each observing site. After rigorous quality 
checks that can take several months, the correlated data are 
released for further analysis.
    Because our dishes are few and far between, we can recreate 
only small pieces of our imaginary planet-sized lens. Our next 
speaker, Dr. Bouman, will talk about how the team has used 
innovative new approaches to make a reliable image from 
incomplete data.
    I want to express my gratitude to the Committee for the 
opportunity to speak to you here today, and I'd be pleased to 
answer any questions you may have.
    [The prepared statement of Dr. Lonsdale follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    Dr. Bouman.

               TESTIMONY OF DR. KATHERINE BOUMAN,

         POSTDOCTORAL FELLOW, CENTER FOR ASTROPHYSICS -

                     HARVARD & SMITHSONIAN

    Dr. Bouman. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, it's an honor to be here today. I 
thank you for your interest in studying black holes through 
imaging and your support of this incredible breakthrough 
enabled by the National Science Foundation.
    My name is Katie Bouman. I'm currently a postdoctoral 
fellow at the Harvard & Smithsonian Center for Astrophysics and 
in a few weeks will be starting as an Assistant Professor at 
the California Institute of Technology. This morning, I want to 
tell you more about the diverse team and imaging methods that 
helped make the first picture of a black hole.
    The Event Horizon Telescope is an Earth-sized computational 
telescope where instruments and algorithms work together to see 
something that would be invisible to even the most powerful 
conventional telescopes of the future. Unlike a backyard 
telescope you may have peered through to study the night sky, 
the EHT doesn't capture a picture directly. It collects light 
at only a few locations, resulting in gaps of missing 
information.
    As an analogy, observing the black hole with the EHT a bit 
like listening to a song being played on a piano with many 
broken keys. Since the EHT only collects sparse measurements, 
there are an infinite number of possible images that are 
perfectly consistent with the data measured. But just as you 
may still be able to recognize a song being played on a broken 
piano if there are enough functioning keys, we can design 
methods to intelligently fill in the EHT's missing information 
to reveal the underlying black hole image.
    To construct the image, we develop different imaging 
methods based on both established and newer techniques in radio 
astronomy. All of these methods require us to specify a 
preference toward certain images in order to choose among the 
infinite possibilities. And therefore, it was important that we 
carefully validate the results.
    To assess the reliability of imaging results obtained from 
M87 data, we split roughly 40 scientists from around the world 
into four teams. Each team worked in isolation, blind to the 
others' work, while creating an image of M87. After 7 weeks, we 
held a workshop where members from around the globe gathered to 
reveal their images to one another. Here, we show the images 
that were revealed.
    Seeing these images for the first time was truly amazing 
and one of my life's happiest memories. This test was hugely 
significant. Although each picture looks slightly different, we 
found the same asymmetric ring structure no matter what method 
or person reconstructed the data. After working for months to 
further validate this ring shape, we combined images produced 
by various methods to form the image that we showed to the 
world on April 10.
    No one algorithm or person made this image. It required the 
talent of a global team of scientists and years of hard work to 
develop not only imaging techniques but also cutting-edge 
instrumentation, data processing, and theoretical simulations.
    There is a particular group of members I wish to celebrate 
today, the early-career collaborators composed of graduate 
students, postdocs, and even undergraduates who have devoted 
years of work to this project. Early career scientists have 
been a driving force behind every aspect of the EHT. By 
providing opportunities for young scientists to take on 
leadership roles and direct significant work in the project, 
the EHT is training the next generation of scientists and 
engineers.
    So I personally stumbled upon the EHT project as a graduate 
student studying at MIT's Computer Science and Artificial 
Intelligence Laboratory nearly 6 years ago and immediately fell 
in love. Like many big science projects, the EHT had a need for 
interdisciplinary expertise, and taking an image of a black 
hole shared striking similarities with problems I had 
encountered earlier in my studies such as capturing a picture 
of your brain from limited data using an MRI scanner.
    Thus, although I had no background in astrophysics, I hoped 
that I could contribute from my area of expertise in advancing 
the EHT technology. If it wasn't for the help of the National 
Science Foundation Graduate Fellowship which gave me the 
freedom to work on risky projects, I may have never had the 
chance to be part of this incredible endeavor.
    The EHT introduced me to an entirely new domain where 
emerging computational methods were essential to the success of 
scientific goals. Moving forward, the computational imaging 
tools that we developed to study black holes could help improve 
technologies of the future.
    My story is just one of many. I'm one of the numerous 
early-career scientists who have devoted years of their lives 
to making this picture a reality. However, like black holes, 
many early-career scientists with significant contributions 
often go unseen. Although the EHT has been a remarkable success 
story, we must not forget the contributions of all these young 
scientists whose names might not make it into the newspapers, 
for only with them and the diverse group of astronomers, 
physicists, mathematicians, and engineers from all around the 
globe have we been able to achieve something once thought 
impossible, taking the first image of a black hole.
    Thank you for the opportunity to testify and for your 
support of groundbreaking, collaborative, and interdisciplinary 
science.
    [The prepared statement of Dr. Bouman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Johnson. Thank you very much.
    At this point we'll begin our first round of questions, and 
the Chair recognizes herself for 5 minutes.
    And this question goes to all. NSF made a significant 
commitment to this project without any guarantee that it would 
succeed. In a time with many competing financial priorities, 
why is it important that the Federal science agencies take 
risks like this for basic research even if there's no 
foreseeable application?
    Dr. Cordova. Sure, I'll start. Thank you very much for the 
question, Madam Chairwoman.
    The definition of NSF is to take risks in science and 
engineering, risks that have potentially very high rewards. We 
saw an example of this with the first detection of 
gravitational waves on Earth a few years ago, and subsequently, 
a project that we invested in starting 40 years ago has just 
yielded tremendous results, most recently, many more detections 
of gravitational waves in the third run of LIGO.
    And then just a short while ago we announced really a 
solution to the enduring mystery for over 100 years of the 
origin of cosmic rays, with the detection of neutrinos and 
high-energy gamma rays using our South Pole telescope and many 
other telescopes on Earth and in space.
    Doing this kind of observation--and the discoveries--is 
really what NSF is about. We like to say that NSF is where 
discoveries and discoverers, as you heard from Dr. Bouman, 
begin.
    In my testimony, I mentioned that GPS, and in previous 
testimonies MRI, companies like Google and Symantec, Qualcomm, 
all of these are benefits of investing in basic research. It 
just has--sometimes we can have benefits that happen 
immediately, and sometimes it takes a very long time to realize 
benefits. But the upside is that they are truly outstanding 
miracles that happen when we invest in basic research.
    Dr. Doeleman. Could I add to that, Chairwoman Johnson? I'd 
also add that the risks taken by the National Science 
Foundation for basic science are really critical, that with 
basic science, you don't always know where you're going to go, 
where you're going to wind up, but by addressing the deepest 
mysteries in the universe, black holes, with the best 
technologies that we have, we have a chance to answer the 
deepest fundamental questions about our universe.
    If you had asked Einstein, you know, what ramifications his 
theory of general relativity would have had when he came up 
with it, he would have had no answer, right? We would've said 
with our cell phones we can now locate ourselves to within 
pinpoint accuracy on the globe, and he would have looked at you 
and said what's a phone, right? He wouldn't have had any idea 
really to even understand the question. That's how long it 
takes sometimes for the fruits of basic research to be 
realized. But when you ask those basic questions, they almost 
always pay off.
    Dr. Lonsdale. So I'd like to add something. I think that 
when the NSF invests in something speculative and high risk 
like this and it pays off, as it has in this case, it is a real 
attention-grabber not just for all the scientists who are 
interested in doing this but the whole world. We heard Dr. 
Doeleman say that 4.5 billion people around the planet saw 
this. And this is the way that young people can be inspired to 
think about, you know, emulating some of this work and getting 
involved in the STEM disciplines, so it is an important 
component of feeding the STEM pipeline.
    Dr. Bouman. Yes, I agree with everything that has been said 
by my colleagues here. I think technology and basic science, 
you know, really drive each other. They feed off each other and 
they help each other grow. And so it's important that we 
continue to invest in basic science because we don't 
necessarily know the ramifications of how that will manifest in 
technology of the future. Lots of the techniques that we've 
developed for imaging black holes can be adopted potentially in 
the future for other applications that we might not have even 
thought of now.
    And another thing is I do want to emphasize Dr. Lonsdale's 
point as well in that I think that this picture has really 
captured the imaginations of a generation of new young 
scientists, and I've even had, you know, 4-year-old girls come 
up to me and tell me about the black hole, and I think that 
getting that interest in science to young students at a young 
age, it will help them enter the STEM fields and make 
contributions to many different projects.
    Chairwoman Johnson. Thank you very much. I'm not out of 
questions, but I'm out of time.
    Mr. Baird?
    Mr. Baird. Thank you, Madam Chair. And to all the 
witnesses, we really appreciate your testimony and the 
discoveries you're sharing with us today.
    I would also like to congratulate all of you on receiving 
the Diamond Achievement Award this week at the National Science 
Foundation awards gala, so I commend you for that.
    Dr. Bouman, I have a question that relates to the 
importance of the opportunity you had to do research at such a 
young age and a career as a scientist. I think you conducted 
some imaging research at Purdue University while you were still 
in high school. So would you care to elaborate on that?
    Dr. Bouman. Sure. So I actually was--got a job at a lab 
in--at Purdue University when I was--in the summer after 11th 
grade partly because I had kind of stumbled upon a class taking 
a computer science class in high school, which I had never 
really thought about taking but I took on a whim and, because 
of that, I had an interest from--because I understood this new 
language of computing, a professor there, Professor Edward 
Delp, invited me to help his graduate students in the lab there 
that summer. And that was the first time I had exposure to real 
research, to imaging and the--kind of the exciting world of 
imaging.
    And one thing that really grabbed me from that was being 
able to see the results. And I really loved being able to work 
on problems where you can visualize your results. And so from 
that I kind of gained a love of imaging and images, and that 
drove me in my future--my path toward studying electrical 
engineering and computer science, computer vision, and 
eventually being on the Event Horizon Telescope project. So I 
think that spark of passion at a young age really brought me to 
where I am now, so I'm eternally grateful to my opportunities 
at Purdue for that.
    Mr. Baird. Thank you. My next question, maybe all of you 
might want to respond, but it's in keeping with the theme that 
you had for the National Science Foundation award. Do you have 
any recommendations on how we might ignite the spark that 
stimulated you to get into your profession so that we can keep 
these students encouraged and excited and fulfilling that 
pipeline to have more researchers in the future?
    Dr. Cordova, do you want to start with that?
    Dr. Cordova. Sure. Well, my own STEM spark was from 
watching a television show ages ago about neutron stars when 
they were first hypothesized as being responsible for certain 
phenomena that were being observed. And one of the MIT 
professors on the show talked about the energy that would be 
liberated if you dropped a marshmallow onto a neutron star. And 
I was so mesmerized by that concept.
    The next day--I was actually doing an education project in 
Cambridge, Massachusetts--I took a bus and went right down to 
MIT to meet that professor, and I said this is what I want to 
do for the rest of my life. I want to work on this. And so for 
some reason they gave me a job for the summer, and it all 
worked out. So I really believe that you can have your 
inspiration from so many different places.
    And what NSF is trying to do is find curriculum projects 
that happen in schools, like computer science in the classroom, 
and to help wonderful teachers get more skills. But we also 
spend part of our portfolio, as I think you know, on informal 
science education, such as money to museums and to television 
shows about science. There has to be a myriad of ways of 
reaching out and trying to inspire people to know more about 
science and be attracted to it.
    Dr. Doeleman. It's a wonderful question, and it's one that 
we really focused on in the project. I think you've seen that 
this image and the pins you have in front of you are--really 
resonate with the public and scientists alike. It's a real 
opportunity to get people at a young age, which is really when 
you want to ignite that spark into science. Mine came about 
with a stint at a museum that I worked at actually looking over 
animals, so I got into this through biology if you can possibly 
believe that, so you never know where the spark is going to 
ignite.
    But getting the outreach is really important for this. It's 
really important to get into museums, informal outreach, and 
also to invite the young people into labs in places where they 
can really do research.
    Mr. Baird. I'm out of time, but the Chairwoman has allowed 
me to go ahead and let the other two finish.
    Dr. Lonsdale. Thank you very much. Yes. Well, my own spark 
was at a very early age also, which seems to be a bit of a 
consistent theme. I was looking up at the night sky when I was 
5 years old and had a hunger to read all about it, and my 
parents got me a telescope when I was 8. And also at the same 
time the U.S. space program was taking off quite literally, and 
that--all of this was completely mesmerizing to me, and it set 
me on a course for life to pursue this type of work.
    And I see that in very tangible ways in what I'm doing now. 
My observatory, we have a fair amount of public outreach, and 
one form this takes, for example, is open houses. And just 
recently I held an open house where I was, for the first time, 
able to talk about the black hole result, and the children in 
the audience were by far--they were absolutely thrilled to 
pieces. And I got lots of questions afterwards. But the longest 
time and the most questions came from a 10-year-old.
    And I think that connecting the scientists who have the 
enthusiasm for the work with the young people, you know, like 
10-year-olds who are--who have minds that are sponges for 
information, that is incredibly potent. And that's been my 
experience throughout my work in public outreach.
    Dr. Bouman. Yes, so I would say, you know, throughout my 
early years I had many different sparks, and I think having 
many opportunities to continue to grow that interest in science 
is so important, to have many different programs and 
opportunities.
    However, I will--I want to highlight one that I had in 
sixth grade. My science teacher had us all enter the science 
fair, and I--this was the first time where I really did a 
science project that was outside of just your standard homework 
that you do, and I thought for ages about what I would work on. 
And I decided to work on how--what makes the best bread. So I 
actually baked probably hundreds of loaves of bread with 
different amounts of salt, different amounts of sugar, and 
different types of yeast, and I measured how big they rose and 
the taste. I even filled out IRB forms to have my friends taste 
the different bread. And that was a really fun experience, a 
wonderful experience. I entered it into the science fair in the 
area and won gold in my category. And that I think was my first 
true excitement where I knew research was a pathway for me.
    Mr. Baird. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Chair Johnson and 
Ranking Member Lucas. And thank you to all of our witnesses.
    I also want to congratulate the National Science Foundation 
and the entire team around the world for this groundbreaking 
work on the Event Horizon Telescope project. Congratulations. 
Not only was this an incredible scientific achievement, the 
release of the first-ever image was of course--sort of 
shattered the glass ceiling for women in STEM, so it was a 
pretty significant day. I remember when the news hit, and it 
was an inspiring moment of course for young women who want to 
go work in what are still traditionally male-dominated fields 
in the sciences. This certainly demonstrates the value of 
teamwork and collaboration in scientific discoveries.
    Dr. Bouman, I'm the Founder and Co-Chair of the STEAM 
caucus, where we advocate for integrating arts and design into 
STEM learning to spark creativity, to get more people involved, 
and to really have that well-rounded education that stimulates 
both halves of the brain. I appreciated the analogy in your 
testimony comparing the observations from the telescope to a 
song on a piano with broken keys. There is some research that 
shows the Nobel Laureates in the sciences are more inclined to 
be engaged in arts and crafts than other scientists, so it's 
just a little story there.
    So why was it important to have an interdisciplinary team 
to develop the imaging algorithms, and what did you learn from 
the development of the algorithms that could benefit future 
unexpected observations going forward?
    Dr. Bouman. Yes, so the EHT, like many big science 
projects, really draws on many different areas. So, you know, 
at its core it's a science project. We're trying to learn about 
black holes, and there, we need theorists to tell us, you know, 
what do we expect? But also it's an engineering project. You 
know, we spent over a decade building a telescope with new 
instrumentation that had to be put together, and because it is 
a computational telescope, we also had to develop algorithms 
and methods, and this requires us to understand computation and 
optimization and many different--kind of how do all these 
pieces play together and come together to give us this kind of 
amazing result, so we really had to have, you know, 
instrumentation, algorithms, theory. But it was really all--
each part was essential.
    And you also have to understand each part as a--you know, 
when I started this project actually, as I said, I came from a 
computer science kind of area, and I--you know, I met with Dr. 
Doeleman and I was like, oh, this is such an exciting project. 
And I kind of--I decided, oh, I really want to work on it, but 
I kind of went off on my own and started to try to read about 
the ideas of interferometry and how to make an image and, you 
know, coded up some little simple algorithm, but I really--you 
know, that doesn't get you anywhere just being by yourself. I 
didn't understand the intricacies of the data. What kind of 
challenges do we have with this data?
    And so it was really essential when it really started--when 
we really started being able to push the algorithms is when we 
all kind of got together from different parts of the team, 
understood what kind of noise do we see in our data, what is 
really different about the data and challenging about the data. 
Even time that I spent at a telescope at over 15,000 feet above 
sea level I learned where does--where do things go wrong, and 
how do we account for this in our algorithms?
    And so I think it was really essential even on just one--
you know, making an imaging algorithm, which is just one part 
of this huge project, even combined information from across the 
project.
    Ms. Bonamici. Wonderful. Your enthusiasm is amazing. I hope 
it's contagious. I want to get a question into Dr. Doeleman, 
who I learned is an Oregonian.
    And, Dr. Doeleman, you told me about some of your early 
days with all the hands-on learning at the Oregon Museum of 
Science and Industry, which is a gem in the Pacific Northwest, 
and I know gets a lot of children and adults engaged in 
science.
    You noted that capturing an image of a black hole was 
presumed to be impossible just a generation ago but now can 
lead to the emergence of a totally new field of science. So how 
can black holes be used as tests of our universal theories and 
what further resources are needed to succeed in the EHT's next 
scientific feat?
    Dr. Doeleman. Thank you for the question. There are a lot 
of different ways to proceed from here. This really is the tip 
of the iceberg. Imagine when Galileo was looking through the 
first telescope. It wasn't the end of astronomy, it was the 
beginning of astronomy. In the same way, this image you see 
here is creating the ability for us to use the most intense 
cosmic laboratory as a way to understand the universe. 
Normally, you would have to build a supercollider or something 
like that to attain the energies and the extreme physics to 
probe the unknown. Here, we're using the edge of a black hole 
that nature presents us as a natural laboratory.
    So in the future, we want to make movies, not just still 
images, because what you're seeing here is light orbiting 
around the black hole. That's one test of Einstein. Now, we can 
move to matter orbiting around the black hole, make movies of 
this, a completely different test of Einstein, testing the 
period it takes for matter to orbit around. And more than that, 
we can see how these black holes are ferocious engines at the 
centers of galaxies launching these jets that can pierce an 
entire galaxy and disrupt star formation.
    So black holes are at the heart of why the night sky looks 
the way it does. And, as we move forward, we'd like to fill in 
this virtual telescope with putting new telescopes tailor-made 
to fill out that virtual Earth-sized array, and that will 
sharpen our focus and let us make movies.
    Ms. Bonamici. Fascinating. My time is expired, but be 
assured we will be following the work. It's wonderful. Thank 
you. I yield back.
    Chairwoman Johnson. Thank you. Mr. Biggs.
    Mr. Biggs. Thank you, Madam Chair, and thank you, Ranking 
Member Lucas. And thank you to each member of the panel for 
being here today. I appreciate you sharing your experience and 
sharing with us this important discovery and how you went about 
it. And I think many of us are very excited to see what the 
next step is going to be.
    I would be remiss, however, if I didn't mention the 
contributions of the university in my home State, University of 
Arizona, where the submillimeter telescope on Mount Graham was 
used and coming up for the 2020 series will be the Kitt Peak 
Observatory will also be joining, and I'm excited about that.
    So having made a commercial now for my own State 
University, I will now go to my questions. Dr. Doeleman and Dr. 
Lonsdale, when the news broke that the first image of a black 
hole was going to be released, many of us thought it might be 
Sagittarius A*, the supermassive black hole at the center of 
the Milky Way. What have been the challenges for imaging that 
black hole, and do you expect to be able to produce an image of 
that particular black hole?
    Dr. Doeleman. It's a wonderful question. We have two 
primary targets in the Event Horizon Telescope project, both of 
which we--for both of which we can resolve that event horizon. 
We focused on M87 because the results started falling out very 
cleanly in a very pure way at the get-go, so we oriented all of 
the efforts of the collaboration toward that goal to get our 
first results out. But Sagittarius A* is next on our list.
    It is a little bit more difficult because, during the 
course of one evening of observing where we fill out the 
virtual lens because the Earth rotates and changes our points 
of view of the object during the night of observing, the source 
itself is changing because it is 1,000 times smaller in mass 
and therefore it's 1,000 times faster in evolution than M87. 
During one night of observing, M87 stays static, but 
Sagittarius A* evolves in front of our eyes so to speak. So 
we're developing some new algorithms, courtesy of Katie and the 
other early-career scientists, to handle that.
    Dr. Lonsdale. And I can speak a little bit to the ways that 
we might be able to enhance the Event Horizon Telescope. And, 
I'm sorry, thank you very much for the question. It is right on 
point for some of the things that we're thinking about for the 
future.
    One of the things that Dr. Doeleman has already mentioned 
is adding additional telescopes to the array, and what this 
does is create more points in front of that giant imaginary 
lens to collect information. And, as it turns out, if you 
double the number of telescopes, you actually quadruple the 
amount of information that's available to reconstruct the 
images.
    So because Sagittarius A* is changing quickly, we need to 
gather a lot of information in a shorter amount of time so that 
it doesn't change too much. There's a couple of ways to do 
that. One is to add telescopes. Another, which is perhaps a 
little further into the future, is to put dishes into low-Earth 
orbit because those move much more quickly than the Earth 
rotates and sample more data more quickly. So we've got a 
couple of ways to improve the potential for imaging and making 
movies of Sagittarius A*.
    Mr. Biggs. Yes. I'm looking forward to that. Dr. Bouman, 
what other applications can come from the computational, and 
you had kind of touched on this, but I want to know what other 
applications you think might develop from computational imaging 
tools that were developed to study black holes.
    Dr. Bouman. Sure. If we're on the topic of Sagittarius A* 
and how it's evolving really quickly where you have this huge 
amount of evolution over the course of the night, this causes 
challenges from us from an imaging perspective because the 
measurements that we take are taken over the course of a night, 
so each measurement is basically from a different snapshot of 
the black hole. And so we're coming up with ways of tying this 
information together to make not just pictures of black holes 
but movies of it evolving over the course of a night.
    And this kind of similar--this kind of approach could be 
applied to many different problems. So, for instance, one that 
has I think a very similar problem is an MRI. When you're 
studying, for instance, organs that are moving or even like a 
fetal MRI, taking images of a baby inside of a mother's womb--
and because, as the MRI machine scans, the baby is moving, you 
actually also have to have kind of a model of motion and 
understand that the picture is also evolving. So techniques 
that we use for imaging a black hole, similar ones could be 
applied to this idea of how do we image a baby inside of a 
mother to get a better diagnosis of issues that might happen?
    Mr. Biggs. Great, thank you. I still have time. I'm going 
to zip through this question real quick. This project is a 
great example of international collaboration and science, and 
questions are these. What makes a successful S&T international 
cooperation agreement, and how do we ensure these agreements 
are two-way streets and not the U.S. feeding its knowledge and 
talents to other countries without reciprocation? So whoever 
wants to take those two questions.
    Dr. Cordova. Yes, I'll start. We have a lot of 
international collaborations on our various facilities. A great 
example is the ALMA telescope that played such a big role in 
this observation. Also, we are contributors to the Large Hadron 
Collider at the CERN in Europe, and many, many of our biggest 
projects have international collaborators because the talent is 
worldwide, and also they help with the funding of course.
    And so we have those principles for international 
collaboration, but it has to be a win-win situation, as you 
said, Congressman. Everybody has to gain from this, everybody 
has to contribute scientific talent and get something from it. 
And the collaborations have to do something really important 
that's going to move the discovery needle forward. Shep?
    Dr. Doeleman. It's a great question. We wrestle with that, 
and we were successful because we adhered to some principles as 
we put together this collaboration. One was transparency. You 
have to make sure that you know what everybody is doing at all 
times. And we ensured that by making sure that all the working 
groups that we put together had members from all the different 
constituencies so everybody can see actively what's going on.
    We didn't sequester one group here to work on one thing or 
one group here to work on something else. We really combined 
everything through the miracle or burden of videoconferencing. 
We tend to live our lives on video cons these days, but it's 
really true that you can publish with someone now that you've 
never met. And it's kind of an uplifting way to think about 
things, right? I mean, we can really broaden the team across 
borders and across cultures and across different practices in 
this way.
    And we also had very strong policies on publication and how 
to proceed with allocation of resources and planning for the 
next arrays and how we're going to go to the next generation. 
So by being very inclusive, we got the best of everyone, and we 
also made sure that everyone saw what we were doing. And that 
is one of the principles that I think has made us successful.
    Chairwoman Johnson. Thank you very much. Mr. Lamb.
    Mr. Lamb. Thank you, Madam Chairwoman.
    This is a question for anyone that's knowledgeable about 
it, but I was curious about the supply chain for the 
construction of the telescopes themselves, both the current 
ones that we have and the additional ones that may be coming. 
Are we relying on a lot of American businesses and American 
materials for these things? And I would ask the same thing 
about the software and computers that we're using for the 
imaging as well. So if anyone is able to address that, thank 
you.
    Dr. Cordova. This particular project was completely reliant 
on telescopes that already existed all over the world, 
obviously on many continents. Their supply chains are all 
different. In the case of U.S. telescopes, of course, we try to 
do our best to use American-made products. We have a few 
telescopes that were used in Arizona and Hawaii, and we 
anticipate more of those. But this is really all about a global 
supply chain.
    Dr. Doeleman. Yes, thank you for the question. I would add 
that while we all work together, all the constituencies within 
the project realize that they want to use local resources where 
possible, so we lever that. So Europe uses the best 
construction practices and companies in Europe, but we use the 
best construction practices and companies here in the United 
States. We define what the instrumentation has to do, and then 
we apportion who's going to do what based on the local 
resources. So we've been very careful to lever U.S. businesses 
when we can.
    And I just want to give a shout-out to Arizona again that 
the submillimeter telescope on Mount Graham was involved in the 
very first observations that we ever made of Sagittarius A* 
that got this whole thing started, and it was the investment of 
the NSF in that U.S. site that really made that possible.
    Mr. Lamb. Thank you. Is--are there particular companies in 
the American telescopes that have been leaders or been 
especially reliable for us in the construction of these things 
or that we might be looking to going forward?
    Dr. Doeleman. Do you want----
    Dr. Cordova. You may have particular examples, but we can 
certainly, Congressman, get together a list of that and give it 
to you. They are many and complex.
    I do know that at our own universities, amazing work is 
going on by investigators that we fund to build a lot of 
telescope optics, so that's a great credit to the way the 
science engine works.
    Dr. Doeleman. Actually, if I may, a very interesting tie-in 
here is that the size of the telescope you need depends on the 
bandwidth, as Dr. Lonsdale was describing. So by investing in 
high-speed electronics, for which we use, you know, like 
Xilinx, for example, which is a U.S. company to do the 
throughput on our field-programmable gate arrays get a little 
bit wonky, that decreases our reliance on steel necessarily, so 
we don't need to build huge telescopes. We can collect more 
data by recording bigger slices of the radio spectrum and make 
the dishes smaller. That changes the kind of company you go to 
or the kind of designs you do, so it's very interrelated. And 
it's a very interesting optimization problem, and that's what 
we're working on now.
    Mr. Lamb. Thank you. Madam Chairwoman, I yield back.
    Chairwoman Johnson. Thank you very much.
    Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair, for holding 
this hearing and for all of us that are here today, I think 
this is a remarkable event and achievement. I want to 
congratulate everybody involved in this.
    Dr. Doeleman, from what I understand in reading your 
statement, the project is looking to expand by including three 
new additional telescopes. Do we identify where those 
telescopes are going to be included from, any country that 
you're working right now in that regard that you can share with 
us?
    Dr. Doeleman. So we're looking broadly at how to fill in 
this Earth-sized virtual lens. So in the next year we'll be 
including a new telescope in France, NOEMA, which is an array 
in the French Alps, and that's already very--underway. The Kitt 
Peak Telescope that the Congressman mentioned will be lighting 
up on the Kitt Peak National Observatory. That's another one. 
And beyond that, we're looking primarily at potential new sites 
where we'd like to put new telescopes, and for that, we're 
doing some optimization studies now. In fact, we're putting a 
proposal in soon for that, which will lead to a global design 
for where we want to put the next site.
    So it's very interesting, when you look at this image and 
you say, well, how can we make it better, there are metrics, 
right? You can say, well, it can be sharper, it can be more 
sensitive, and so where you put the telescopes affect those 
metrics. They affect how much better the image would look. And 
you can make what we call a heat map. You can look on the whole 
globe and find out where you need to put the next telescope to 
maximize the scientific return from this image. And so we're 
looking at that now trying to find out where we want to put 
them. And then we think we can put modest dishes, smaller 
dishes at these new locations to build out the full array.
    Miss Gonzalez-Colon. So that's the process to select the 
telescope and the places they're going to be installed?
    Dr. Doeleman. That's what would like to do, yes.
    Miss Gonzalez-Colon. OK. And what are going to be the main 
challenges for you in that process of selecting which 
telescopes and where those telescopes are going to be 
installed?
    Dr. Doeleman. Well--what's that?
    Dr. Cordova. Getting funding.
    Dr. Doeleman. Yes, getting funding. I'm told by Director 
Cordova that getting funding is very important.
    Miss Gonzalez-Colon. Very clever.
    Dr. Doeleman. And it is. But the first part is design 
really. It's coming up with the new algorithms, the new metrics 
of the stuff that Dr. Bouman was talking about and the new 
electronics that Dr. Lonsdale was talking about. Folding that 
all into the equation and finding out where we can get the best 
value for the taxpayer's dollar, where can we target these--the 
locations of our next dishes to ensure that for the best return 
on investment that we can get that.
    Miss Gonzalez-Colon. The increase in cost, of course, by 
installing those new telescopes will mean that you need to plan 
ahead. Are we willing to look in the private sector investment 
to help out in this endeavor?
    Dr. Doeleman. Well, that's a wonderful question. You know, 
it turns out that when you get a result like this, others want 
to invest in it, too, so we are currently--we currently have an 
NSF award for which Google is partnering with us to help us 
move some of the computation that we do because it is very 
computational-intensive, as Dr. Bouman said, to the cloud where 
we have virtually unlimited processing power, for example, the 
same thing with some of the high-speed digital electronics. So 
we're working in that--definitely in that direction.
    Miss Gonzalez-Colon. Dr. Bouman, I read in your statement 
as well that you mentioned that, given the limited number of 
telescopes and limited number of locations, there are 
information gaps. From what I understand, it's looking of 
course to increase the cooperation of those other countries. 
The Director just explained the process for the new challenges. 
Can you tell us about what we're expecting to see in using 
those new telescopes?
    Dr. Bouman. So we aren't just observing M87 once. It's not 
like we observed it and then we go away and we look at other 
things. We're going to continue to every year go back, improve 
our instrument, and try to learn more and more. So--and look at 
other sources like Sagittarius A*.
    So when--we are simultaneously improving the instrument and 
our algorithms to work together to answer these questions, and 
I think that now that we have a first image and see that it is 
possible to see this ring, then we can go back and say, OK, 
here--where is our missing information? Where--and we can 
target those areas through new instrumentation and algorithms 
and try to answer those questions and get a clearer picture of 
GR and light--general relativity and how it acts around a black 
hole. So I think that is something that we look forward in the 
future to seeing.
    Miss Gonzalez-Colon. Thank you, Doctor.
    And thank you, Madam Chair. I know my time is expired, but 
I know that the broader implications of this discovery will 
help a lot of areas between physics and data science. I yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair. Thank you to all the 
panelists. I got to tell you, you guys should take this show on 
the road. Your enthusiasm is just so infectious and it's so 
cool.
    The--so I learned a valuable lesson--I hope not to repeat 
last week, which is that if you miss an episode of Game of 
Thrones, you find out a couple days later that apparently it 
all ends with dragons. I don't want to do that again, so can 
you give us a little hint of what--you mentioned that we--
you're going to be able to now tune this on the black hole at 
the center of the Milky Way. When should we be tuning in for 
that?
    Dr. Doeleman. OK. Well, as they say, I would tell you, 
but--well, so, first of all, let me say that, bound by a common 
science vision, it really helps when you want to prevent a 
leak. So what really surprised people with this result is that 
people thought it was going to be on Sag A*, and we had 200 
people from around the globe and nobody broke the code, right? 
Nobody broke the silence, and I think it's because we all 
understood the impact that it would have, and we wanted to be 
able to tell our story, the scientific story after peer-
reviewed publication of our results, so that was a key part of 
it.
    And as we go forward and look to Sag A*, of which we'll be 
using the algorithms and new computational platforms, we're 
going to be attacking that with the same rigor and the same 
crosschecking, the same purposeful tension within the 
collaboration that allowed us to produce this result. So we'll 
be splitting up into teams probably, as Dr. Bouman described, 
we'll be crosschecking, double-checking, making sure that one 
frequency gives us the same image as a different frequency, one 
polarization gives us the same image as the other polarization. 
We'll check everything, and only after that will we reveal in 
an episode of Game of Thrones----
    Mr. Casten. I will take that as a constructive nonresponse, 
and I'll not pressure.
    Dr. Doeleman. I would estimate within a year.
    Mr. Casten. Well, part of why I'm intrigued is that, you 
know, you've talked about that you can--there are sort of tests 
of Einstein's relativity in this, that you'll have--be able to 
do other questions, and in this whole idea of like actually 
seeing a movie of this. And I guess I'd just love to hear your 
thoughts about what are the types of questions that we can 
answer once you tune it there both in terms of looking at the 
Milky Way and in terms of potentially getting some--you know, 
some movement? What types of questions are you going to be 
asking--be able to learn at that point that we don't know now?
    Dr. Lonsdale. Well, the black hole at the center of our 
galaxy, Sagittarius A*, may look different from what you see on 
the screen there in a few different ways. The black hole at the 
center of the Milky Way is in a different environment. It's 
accreting material at a very low rate. It may be oriented on 
the sky in a different way. And so there's a lot to learn by 
looking at different black holes. We don't know what we'll 
find. It's one of those things where it's right at the frontier 
of what we're technically able to do, so it places a tremendous 
emphasis on checking and double-checking, as Dr. Doeleman said, 
to make absolutely sure that we know not only what the image is 
but what the uncertainties on the image are. So we're going to 
be working hard on that.
    Mr. Casten. So if I understand, you've got a couple more 
telescopes that you're adding. You've got one that you added in 
2018 and then two more in 2020 if I've got that right.
    Dr. Lonsdale. Yes.
    Dr. Doeleman. Well, we're adding two more next year for the 
observing campaign in 2020, and then we're looking to the 
future to add even more than that.
    Mr. Casten. OK. So what sorts of things are you going to be 
able to see once you have those additional data inputs? And I'd 
love to know from Dr. Bouman, like as you think about sort of 
analytically, what holes in your data field if you will are 
going to be filled in with those additional--you know, what are 
you sort of salivating to see once you get those additional 
points?
    Dr. Bouman. Yes, so I think, you know, one thing is we 
don't know what we're going to see, so that I think is part of 
the mystery and excitement of it all. But one thing is if we 
zoom in toward Sagittarius A*, all of this variability that 
hopefully, by adding new telescopes, we will get a better grasp 
of, we can better map out the space-time around a black hole.
    So, right now, you know, we just have a static picture. But 
just like seeing a movie tells you so much about--more about 
your environment than just a single picture, getting that movie 
will allow us to learn so much more about the black hole. For 
instance, the black hole in M87, we get an estimate of its 
mass, the size it is, but by seeing this evolution around a 
black hole, maybe we can learn about not just its mass but its 
spin, and knowing both the mass and the spin tells us about how 
it should affect every--the space-time around it. And so I 
think that being able to have a grasp on that will teach us a 
lot.
    Mr. Casten. Well, this is very cool. I yield back. Thank 
you.
    Chairwoman Johnson. Thank you. Dr. Babin.
    Mr. Babin. Yes, ma'am, thank you, Madam Chair. And thank 
you all for being here.
    Dr. Cordova, I enjoyed you accompanying our Committee. I 
guess it's been the year before last when we went to the Arctic 
and saw some neat things. Good to see you again.
    I wanted to ask a question about return on investment, and 
I'd like to hear it from maybe all of you if you get a chance. 
We'll start with Dr. Cordova. Our constituents may ask why 
invest taxpayer funding in imaging a black hole? And that is 
what can you tell them or what can we tell them has been the 
return on their investment? And I liked what Dr.--is it Bouman 
or Bouman?
    Dr. Bouman. I don't mind either, but Bouman is what I 
usually say.
    Mr. Babin. All right. Bouman. See, we don't know what we 
don't know, so that's kind of a mysterious thing to say, but 
you know, if we can ever get the James Webb Space Telescope up 
there, I assume that's going to open up some new windows and 
horizons for us as well.
    But let's start with you, Dr. Cordova, on return on 
investment where somebody says, what are we getting for 
spending all this money on imaging a black hole?
    Dr. Cordova. Well, there's three ways I like to answer 
that, but I want to give a lot of time to my colleagues here, 
so I'll just say the three words are inspiration----
    Mr. Babin. Right.
    Dr. Cordova [continuing]. And that is--that's at the root 
of who we are as human beings, and that's what draws us in to 
our fields where our passion and our commitment is. And we all 
were sharing earlier our STEM spark, and so it's so important 
with young people to get them inspired, so we had great moments 
like landing on the moon and the discovery of the Higgs boson 
and this imaging of the black hole, and who knows how many 
people that will attract into science, all kinds of science and 
engineering.
    Mr. Babin. Right.
    Dr. Cordova. The second one has to do with all the 
engineering and computational tools that go into a discovery 
like this, a challenge like this. It took them over a decade to 
do this, and, as you know, the LIGO gravitational wave 
experiment took 40 years.
    And the amazing amount of engineering prowess and 
computational prowess that it takes in order to make those 
kinds of feats have many, many spinoffs. There are many things 
that are invented for the first time that then go into 
spinoffs.
    And the third one is that when we invest in truly 
fundamental basic research, it can have enormous benefits, not 
just little incremental benefits. We talked earlier about GPS, 
about MRI technology, about new companies that are invented 
like Google itself. These start at the root with just a little 
piece of fundamental research.
    Even the people who are discovering--we funded Charlie 
Townes, the Nobel Prize winner, we gave him 17 grants over his 
lifetime, and he never said I thought it would end up in the 
maser--and we use masers for the clocks in order to synchronize 
the telescopes--he never thought it would end up in the laser 
and doing eye surgery and all. But he did it because he was 
driven toward a fundamental discovery.
    Mr. Babin. Right.
    Dr. Cordova. These have amazing benefits for the public but 
sometimes a little later on.
    Mr. Babin. The quest for knowledge and curiosity, that's 
quite----
    Dr. Cordova. Yes.
    Mr. Babin. Dr.--is it Doeleman?
    Dr. Doeleman. Doeleman.
    Mr. Babin. Doeleman.
    Dr. Doeleman. I answer to many things. So when I talk to 
the team about what we're doing, I often use the analogy that 
we're jumping off cliffs and inventing parachutes on the way 
down, and that's really emblematic of this project. We're 
asking and hoping to answer the deepest questions. And you 
don't know where they're going to lead.
    Mr. Babin. Right.
    Dr. Doeleman. If you limit yourself by attacking questions 
that you can see what the return might be, then you're really 
limiting where you're going intellectually and where we're 
going as a human--as humans is by asking these open-ended 
questions, that they inspire, as Dr. Cordova said, but also 
that you get these amazing discoveries and the ancillary 
benefits.
    Mr. Babin. Right.
    Dr. Doeleman. Any normal portfolio advisor will tell you, 
you want some stocks, you want some bonds, but you also want 
some high-risk, high-return in there somewhere just on the off 
chance you're going to invest in Amazon or something like that. 
And sometimes it pays off, as it did here, and it really does 
inspire people. So if you want to make the discoveries and, you 
know, have the benefit, you've got to take some--a little bit 
of risk.
    Mr. Babin. Yes. Absolutely.
    And, Dr. Lonsdale, we're running out of time.
    Dr. Lonsdale. Yes, thank you. Yes. I'll try and be brief. 
So I--for me, I already mentioned the inspiration aspect for 
young people and getting people into STEM. I'd also like to 
very briefly mention that my observatory, we have an 
interdisciplinary research program. The techniques and 
technologies that went into EHT echo throughout all of the 
research that goes on at the observatory, and I think that 
that's true on a broader front as well. So, you know, we do 
geospace science, for example, and it's benefited from some of 
the work that's gone on at the EHT.
    Mr. Babin. Right. Thank you.
    And can we indulge Dr. Bouman for just a second?
    Dr. Bouman. Sure. So I think I want to just echo everything 
that my colleagues have said here. I think the technology and 
basic science really drive each other to be better. And things 
that we developed for imaging a black hole we don't necessarily 
know how the--what they'll manifest in technology of the 
future, but I think that they definitely will. I'm very 
confident of that. And I also think that just capturing the 
imagination of young students and turning them--getting them 
excited about science and STEM I think that in itself will lead 
to a lot of innovation in the future.
    Mr. Babin. All inspirational answers. Thank you very much, 
and I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Horn.
    Ms. Horn. Thank you, Madam Chairwoman. And thank you to all 
four of you. What an exciting and important conversation and an 
inspiration this discovery is. I think, Dr. Cordova, the 
inspirational factor I think can't be undervalued and the 
discoveries that come after that.
    And, Dr. Bouman, I want to turn to you first because we 
recently had a hearing on diversifying STEM fields with some 
really fantastic witnesses as well, and I think you are a prime 
example of what that looks like and how a diverse pool of 
scientists is important and can bring different things. So my 
first question really, as we work to inspire the future 
generation is what inspired you to pursue this field of study?
    Dr. Bouman. Yes, so I think, you know, I didn't ever expect 
to come into this and work on this to be a figure of diversity. 
You know, I was just excited by the science, excited by, you 
know, the mystery of what we were working on and what we could 
achieve together as a team. And I think that highlighting just 
not my story but the stories of many different scientists in 
the collaboration who come from many different backgrounds who 
have many different experiences I think is wonderful, and I 
think that many--as we've been talking about, young students 
and getting them excited, it's important to show the diversity 
of people that was necessary to make it possible to get this 
picture because we required that we had many different people 
that kind of came to it with different ideas of what should we 
do and we kind of whittled it down to the best of the ideas, 
and I think that was really essential.
    Ms. Horn. Thank you. I think that's an incredibly good 
point is it's not diversity just for the sake of diversity but 
creative new ideas and perspectives that people from different 
backgrounds, different experiences can bring to the table.
    So following along those lines, I'd like to know a little 
bit more about your early research and the contributions and 
how you see that as helping to shape your next step as you move 
into becoming a professor, so----
    Dr. Bouman. Yes, so I've learned a lot through the Event 
Horizon Telescope project. One thing that it provided--the 
Event Horizon Telescope project provided is many different 
opportunities for leadership, and there were many 
opportunities, and many different parts of the project were 
kind of guided by people such as myself, early-career 
scientists, and kind of we led the direction of different parts 
of the project and had to come up with creative solutions to 
problems that kept popping up everywhere.
    And I think by doing this and having to lead teams of tens 
to hundreds of people in this and kind of converging on one 
story and one kind of result was really helpful for me in my 
next stages of my career where hopefully, I'll--you know, I'll 
be leading a group of students there, and I think that the 
skills that I learned as part of EHT will be invaluable for 
that and something that I think is rare to have at a young age, 
and so I'm really--I think that EHT is doing a wonderful job of 
providing that opportunity for young scientists.
    Ms. Horn. Thank you very much, Dr. Bouman. I agree with 
you. It's easier to envision yourself as something that you can 
see, and I think there are a lot of ways that we can do that.
    I want to turn to Dr. Doeleman for just a moment in the 
little over a minute we have remaining. And I want to ask, Dr. 
Doeleman, what can we--what should be done to help you in 
recruiting and maintaining postdocs and other students to help 
continue to grow the pipeline of scientists and researchers?
    Dr. Doeleman. Thank you for the question. I just want to 
amplify something that Dr. Bouman said, that there is no EHT 
101 course taught in astronomy curricula. Doing something new, 
so fundamentally fresh like this requires that we draw upon the 
best from many, many different fields. So I think the thing to 
do is to invest in some interdisciplinary positions, you know, 
perhaps postdocs and graduate student positions. At Harvard, 
for example, we started the Black Hole Initiative, which brings 
together mathematicians, physicists, astronomers, and also 
philosophers and historians of science, all of whom see the 
black hole as an anchor point in their respective fields. And 
in that crucible of interdisciplinary kind of mishmash of 
wonder, we've--we're now graduating our first students who have 
exposure to all of these different fields together. And that is 
really something that I think lifts up the EHT and it provides 
an example for the kinds of students and early-career people 
that we need.
    Ms. Horn. Thank you very much. My time is expired. I just 
want to say thank you to all of you for the work you're doing, 
and it's really great to have you here. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Posey.
    Mr. Posey. Thank you, Madam Chair, for holding this 
hearing, and thank all of the witnesses for appearing before 
what is clearly the most interesting and the most exciting 
Committee in Congress. I so enjoy it. And you just bring yet 
one more incredible dimension to the things that we get to 
explore with you.
    You know, Dr. Cordova and Dr. Doeleman, given your 
statements that the capture of the first-ever image of a black 
hole by the EHT would not have been possible without American 
leadership, I just wondered if either one of you could 
elaborate just a little bit on some examples of what you mean 
by that.
    Dr. Cordova. Well, in this case what I really mean is we 
were in it for the long haul--and that's true with most of the 
projects that we do of this nature--we've been funding this 
project for about 20 years or so. And we funded the LIGO 
gravitational wave project for 40 years. We consistently fund 
high-risk but potentially high-reward projects, so that was 
just essential in this case.
    Mr. Posey. OK. Dr. Doeleman?
    Dr. Doeleman. Yes, if I could expand on that, and spring-
boarding off of what Dr. Cordova said, this project started 
some time ago and was quite risky at the first stages. We 
really didn't know if there was even anything that small toward 
M87 or the galactic center Sag A* that Dr. Bouman talked about. 
And it was some early proof-of-concept experiments using 
cutting-edge instrumentation by primarily U.S. groups that set 
the stage for the eventual buildout of the EHT.
    And so when we talk about leadership, it grew from a 
history of taking risks and being at the forefront at the very 
outset of the project. And then, as it became clear that the 
project could succeed, then we began to attract more 
international investments and investments even from within the 
U.S., so it grew but always with a nucleus of some U.S. 
expertise at its core.
    Mr. Posey. You know, if somebody had told me we're going to 
locate and coordinate these various telescopes around the globe 
and we're going to coordinate them so that you could read the 
data on a dime from New York with the dime being in Los 
Angeles, I'd think that's insane, so, you know, a lot for your 
courage and your faith in what could be accomplished.
    Dr. Lonsdale, anything you'd like to comment?
    Dr. Lonsdale. Well, certainly the accomplishment is 
something to be very proud of. The--I look at the scale that we 
were able to magnify this thing to, and it still blows my mind 
now even though I was deeply involved in it right from the 
beginning.
    As Dr. Doeleman said, the National Science Foundation has 
been supporting this work--actually I think the foundations of 
this go even before 20 years ago when we started working on 3-
millimeter VLBI in the mid-90s. So we've been--the foundations 
for this have been going on for a long time, and it was really 
quite visionary on the part of the National Science Foundation 
in my opinion to have sustained investment in this, and it 
became apparent, as Dr. Doeleman said, that the event horizon 
scale structure could be accessed. I have to admit I was 
skeptical initially. Dr. Doeleman convinced me after a bit of 
time, but it's been a wonderful experience and a wonderful 
ride.
    Mr. Posey. And, Dr. Bouman?
    Dr. Bouman. Yes, I think it--one thing that has made this 
so strong is that we do have--you know, to make a global 
telescope, we have a global team, but it has been, you know, 
from many students--from students to, you know, senior 
scientists from the United States have really pushed this 
project forward from the beginning, and I--you know, as a 
younger person see this in my mentors, but I think that it's 
wonderful how they've kind of had the courage to stick with 
this for the last, you know, 20 years to achieve what we have 
today, so I think it's wonderful.
    Mr. Posey. You know, I don't think the accomplishment could 
be overstated, and I just hope the public learns more about it 
and would have to become excited about it and more about 
science and especially our young people.
    Thank you, Madam Chair. I see my time is up. I yield back.
    Dr. Doeleman. OK. I was--can I add one last thing? Would 
you mind? Yes. One thing that I think needs to be said is that 
the U.S. attracts the best and the brightest really. We have 
some of the best research universities in the world, and we get 
a result like this, we get a lot of interest from around the 
world from postdocs, from graduate students, from early-career 
researchers who want to come and join the team here in the U.S. 
So this is really a recruitment moment not just for early-
career or early STEM people but it's a way for us to get the 
best people here. And some of them go back, some of them stay 
here, but they all infuse the project with their intellect.
    Mr. Posey. Thank you. Thank you for sharing. Thank you, 
Madam Chair.
    Chairwoman Johnson. Thank you. Mr. Beyer?
    Mr. Beyer. Thank you, Madam Chair, and thank you guys for 
coming back again. I've had a chance to be here on a fly out 
day when you presented a couple weeks ago, and it was very much 
fun to see it, but I was also incredibly impressed with the 
quality of the questions asked by our staff, and I was 
impressed to find out that we now have four astronomers and two 
physicists just on the Democratic side, and of those six, four 
of them are women, which is another thing to celebrate, so it's 
great to have you back.
    Dr. Doeleman, you talked about how you might be able to 
make a movie of the black hole. How will that be different from 
Matthew McConaughey flying into the black hole in Interstellar? 
Is that what you're envisioning or----
    Dr. Doeleman. Well, we're hoping to bring him onto our 
team.
    Mr. Beyer. Put Ed Perlmutter on the team, too, please. 
You'd be glad to have him.
    Dr. Doeleman. But it's a great question. The human 
intellectual palate gets sophisticated pretty quickly, so it 
wasn't 5 minutes after we released this image that people were 
saying, well, what's next? And we were, too, quite frankly. I 
think we were all asking what's next.
    By making movies, we access a completely different realm, 
as Dr. Bouman was saying. We can add some new telescopes around 
the globe to sharpen and fill out the virtual lens, and by 
seeing the motions of matter orbiting around, which can't of 
course move at the speed of light, we test Einstein in a 
completely different way.
    And for Sag A* it was very important. It's a completely 
different kind of object. Keep in mind that it's 1,000 times 
smaller in mass than M87 here, so it's a completely different 
kind of object from an astronomical point of view. It's much 
more similar to all the black holes in most of the galaxies in 
the universe, so by being able to study Sag A*, we can study 
most of the universe.
    Mr. Beyer. You set up my next set of questions because I 
was very much intrigued that you guys hadn't been smart enough 
to come up with a theory of quantum gravity yet, so I've been 
asking a lot of people about it since and reading up on it, and 
I've long been a fan of string theory because the math works, 
right? But in string theory you have 26 dimensions, bosonic 
string theory; super string theory, 10 dimensions. How does 
this work on imaging a black hole help you think about quantum 
gravity?
    Dr. Doeleman. Yes, so it's a really good question. So on 
the scale of the event horizon, we tend to think of black holes 
as classical objects. In other words, the quantum realm doesn't 
really take hold until you get to the singularity that's 
shrouded by the event horizon. When you get to that 
singularity, the density is so high and the force of gravity is 
so strong that finally gravity gets to play with the big forces 
like the strong force and the weak force that control things at 
the nucleon level. And only there does that happen. That's 
where we need to unify gravity and the quantum world.
    At the event horizon, we don't think there's going to be 
much effect on quantum gravity there, but there could be. In 
other words, there are some theories where you get 
manifestations of the quantum world on horizon scales. And 
people have done some simulations now of what that might look 
like.
    Mr. Beyer. When you get to the singularity, will you be 
able to think about things like quantum entanglement?
    Dr. Doeleman. It's possible. I'm not sure--I'll be honest 
with you. I'm not sure how the Event Horizon Telescope is going 
to see through the event horizon. We haven't quite got there 
yet. But if the quantum fluctuations can be manifest outside 
the event horizon, then looking at the electromagnetic 
radiation from the black hole boundary, as the EHT does, could 
give us a window into that.
    Mr. Beyer. So all of us here are big fans of James Webb, 
we're all big fans of WFIRST (Wide Field Infrared Survey 
Telescope). Will this work also give you insight into dark 
energy and dark matter? Or is it----
    Dr. Doeleman. It is possible to think about dark matter and 
dark energy from this perspective, so, for example, there are 
theories that dark matter consists of, you know, black holes 
and things like that. And there are also some possibilities 
that axion particles, which could be the constituents of dark 
matter, dark energy, could be resolved or studied with the 
Event Horizon Telescope, but that kind of remains to be seen. 
That would have--be through a next-generation version of it.
    Mr. Beyer. OK. Dr. Cordova.
    Dr. Cordova. If I could just add that NSF has some other 
telescopes coming online like the large spectroscopic survey 
telescope, the LSST in Chile, that is going to really address 
dark matter and dark energy.
    Mr. Beyer. Great, thank you. And, Dr. Bouman, it was fun to 
read in Dr. Cordova's statement about the 1,000 hard disks and 
too much data to go over the internet and three tons. So you're 
a computer scientist. What's coming in terms of data management 
to be able to deal with these huge amounts of data?
    Dr. Bouman. Yes, well, luckily, from an imaging point of 
view, by the time we start making the images, this data has 
already been whittled down to a much smaller amount of data, 
and then our problem is we have too little data. But actually 
there are groups of people who take the five petabytes of data 
that we collected and get it down to megabytes. So basically 
they try to find this weak signal riding on a huge amount of 
noise and process it down and calibrate it so that we kind of 
can make these measurements that we then use to make images. 
But even then this has required, you know, huge amounts of 
computational power to whittle--to make these five petabytes 
down to the megabyte level. I'm going to--I think Dr. Lonsdale 
will have a lot to say along that line.
    Dr. Lonsdale. Yes, well, just briefly, one of the biggest 
challenges that we face is actually taking the data from the 
telescopes where it's recorded and physically moving it to one 
place so we can combine it. And that's a particular problem for 
the observations taken at the South Pole. Of course, these 
observations happen in the northern spring, which is when 
winter is closing in in Antarctica, so we can't even get the 
data physically for months and months and months. And ways to 
ameliorate that problem are under study, including the 
possibility of laser-based communications via space relay, 
which has the potential for enormous data rates that would 
allow us to get the data much quicker and do the whole process 
more efficiently.
    Mr. Beyer. Great. Thank you very much. Madam Chair, I yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Perlmutter.
    Mr. Perlmutter. This is an incredible panel. I just thank 
you. The enthusiasm, as Mr. Casten said, it really is 
infectious.
    So many, many years ago I wrote my term paper in astronomy 
on black holes, OK? And I love volcanoes and I got to go to the 
Atacama Desert to the observatory there, which is surrounded by 
volcanoes and was focusing on the black hole. They didn't tell 
us the discovery, but they told us there was going to be big 
news coming. So you had a cone of silence, but they definitely 
gave us an indication what was coming.
    And one of the things that I saw that was incredible was 
the teamwork among the scientists of all the different, you 
know, departments that you might be--in English, in Spanish, in 
Czechoslovakian, so we had young scientists down there with--
you know, running the computers, and they were all working and 
each of them could speak the other's language.
    So tell me a little bit about it, what it was like working 
with some of--and all of you, you know, some of your colleagues 
from other parts of the world because this was an incredible 
amount of teamwork. And then I want to talk about time travel 
after that.
    Dr. Doeleman. Well, so, yes, maybe we could solve the time 
problem by first inventing time travel, and then we'll have 
more time to answer the question.
    Well, I think that one of the points of pride in this 
project really is that our strength is in the diversity of the 
team, and the strength is in building bridges across borders at 
a time when I think, as the Chairwoman said, things can divide 
us. The technique that we use, very long baseline 
interferometry nimbly sidesteps all of that in a natural and 
organic way to work with the best experts around the world to 
build this global telescope with a global team.
    And we ensured that, as I said before, by establishing 
working groups, the imaging working group that Dr. Bouman is 
in, technology working groups that Dr. Lonsdale participates in 
by making them interdisciplinary and by drawing on the 
different constituents around the globe as the fabric of it. 
And when you do that and when you bring everyone together, you 
find out quickly who can do the work regardless of where they 
are, and you crosscheck everyone.
    And it set up, that environment that I called purposeful 
tension before. It really is a way to gain acceptance for your 
results when everybody's looking at it and everybody's asking 
questions regardless of language or culture or background.
    Dr. Lonsdale. So I want to emphasize the VLBI technique. 
It's been around for a long time. And because it involves very 
long baselines, it automatically is international. It's been 
international for 50 years. And there is, you know, a real 
sense of community in the VLBI world and everybody's friends or 
nearly everybody is friends. But, no, I mean it's really a 
wonderful community, and it's been a delight to work in VLBI 
for the last several decades.
    But in the EHT, there's also a key factor that ties 
everybody together. Everybody is totally driven by the mission. 
There is a tremendous drive on the part of everybody to get to 
results like this, and that crosses all barriers. And so when 
you combine those two things together, that I think is the 
spirit that you witnessed at the ALMA site in Chile, and it's 
across the project.
    Mr. Perlmutter. All right. So let me just jump to time for 
a second. So does that picture tell you anything about time and 
what it is?
    Dr. Doeleman. OK. I guess I'm going to be the sacrificial 
lamb here on this one. Well, I'll just say that there's no real 
indication that we can make inroads on time travel using these 
results. In one sense you're actually looking at a time machine 
because this black hole is 55 million light-years away. The 
images that you see is the way the black hole looked 55 million 
years ago. So in that sense we're seeing something that left 
the black hole when, you know, the dinosaurs had just been 
extinct here on the Earth.
    Mr. Perlmutter. But going back to the question about 
Matthew McConaughey and Interstellar, does this, what you've 
done, help prove up some of Einstein's theory about time and 
space and something as dense and as massive as that?
    Dr. Doeleman. Yes, absolutely it does. So what you're 
seeing here is the strongest proof we have to date for the 
existence of supermassive black holes, full stop. It really 
validates Einstein's theory as to the precision of our 
measurements around this black hole. For example, Matt 
McConaughey went to this fictitious black hole, and he went 
close to it and he came back and he had not aged as much as a 
companion astronaut in the mothership that was--had not gone 
down into that gravity well. That is a real phenomenon. You can 
go to a black hole, you can go close to it, your clocks will 
tick much more slowly than clocks farther away. And so in that 
sense we have validated Einstein at the black hole boundary and 
maybe put Interstellar on slightly better footing.
    Mr. Perlmutter. Thank you, and thanks, Chair. I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Stevens.
    Ms. Stevens. Well, thank you to our incredible witnesses 
for today's hearing. There's a reason why we're doing this as a 
hearing today rather than a meeting, and that's because we are 
showcasing to the world from the halls of Congress your 
incredible achievement and accomplishments for humanity that 
really just put us at a tipping point frankly.
    And the question I wanted to ask was around the technology 
and the data sets and the logarithms. And I was wondering, many 
of you have it in your testimony, but I wanted you to shed 
light on that technology and what that means for us in our 
everyday lives and what this means for us as, you know, a 
society and other applications that we maybe could use these 
data sets for. And, Dr. Bouman, if you would like to start, I'd 
love for you to take that question.
    Dr. Bouman. Sure. So I've talked with--a little bit so far 
about how the methods that we've developed for imaging a black 
hole can be applied to many different applications. I've 
highlighted MRI taking better images of our brains and organs 
that are moving, and that can be--it's a very similar problem 
to imaging an evolving black hole overnight. I think there are, 
you know, a myriad of different applications, and so many of 
the applications today require that we take multi-modality 
information, sensor data, and merge it together with algorithms 
that kind of piece--that kind of fill in our gaps of 
information to come to some result. And I think that the 
merging of sensor data with algorithms, especially with--in 
machine learning where we're coming up with new computational 
techniques to push the boundaries of these methods.
    I think the methods that we develop for the black hole 
imaging are similar in spirit as these other methods, and we 
have to come up with similar--there are similar problems with 
them as well like validating the information, making sure that 
these systems are robust under--in different situations, making 
sure that we don't impose too much prior information on our 
result, and then we can see something unexpected. I think that 
these are similar problems throughout a variety of 
applications.
    Ms. Stevens. How many people worked on the data set?
    Dr. Bouman. So the imaging portion of it is only one small 
part of making an image of a black hole. There are many 
different steps from developing instrumentation, you know, 
installing these at the ends of the Earth in the South Pole 
even, you know, through data processing. Whole new data 
processing pipelines had to be developed with the challenges of 
the EHT in mind. Even though we were building on past VLBI 
technology, these kind of had to be modified for the challenges 
we faced. Imaging and then model fitting and theory, 
understanding the interpretation, all of these were essential 
parts in getting that picture.
    And so we had over 200 collaborators on the EHT project----
    Ms. Stevens. Wow.
    Dr. Bouman [continuing]. And there were additional 
collaborators who were not part of the collaboration who also 
were essential to making it possible.
    Ms. Stevens. So this was the international collaboration 
that we've been talking about that these large challenges, 
these big visions are really met by coming together, and that's 
something that we spend a lot of time on the Science Committee 
exploring and talking about, which is how to forge unlikely 
alliances, how to set the table. And frankly, that's something 
that the Federal Government does really well when it's working 
well is bringing folks together.
    I have one last little question about the black hole. And 
Mr. Perlmutter got into some of the fun of this, but you sort 
of with your work have begun to normalize the black hole, which 
was sort of just this big vision and debated if it was true and 
what it is, and I was just wondering if you could shed light on 
how one cannot get lost in the black hole as it pertains to the 
work that you're doing? That's somewhat of a poetic question, 
but I ask it because your work has implications for what we are 
doing on the Science Committee and how we are inspiring 
research.
    Dr. Doeleman. That's an interesting question. Let me try to 
answer it. Maybe you can course-correct me if I go astray here.
    One way to look at this and not get lost in it is to put it 
in historical context. So think about in 1655 there was an 
image that startled people. It was the first drawing of a flea 
by Hooke. The microscopic world became real for us. All of a 
sudden something that was invisible to us became real, and it 
changed the way we thought about our lives and it changed 
medicine and disease and epidemiology just knowing that there 
was this microstructure.
    And think also about the first x-ray made by Roentgen of 
his wife's hand. You could see the ring on the--with the bony 
structure underneath. It made something visible for the first 
time that was invisible prior to that.
    And then think of the Earthrise over the moon, the first 
blue marble. It really put things in perspective for us. It 
made us feel connected in a way that we hadn't before. It made 
us feel vulnerable. These are iconic images. They're 
terrifying, but we can't look away.
    And I think that if you wanted to get poetic, using your 
words, that this image may become an icon. It may be the first 
image we have of a one-way door out of our universe. It's 
something that we've been taught that is a real monster exists, 
that the visible has become visible. And then the maybe it's 
the beginning of something new, not just the end.
    Ms. Stevens. Thank you. That's exactly what I was looking 
for. And I yield back the remainder of my time.
    Chairwoman Johnson. Thank you very much. Ms. Wexton?
    Ms. Wexton. Thank you, Madam Chair, and thank you to all 
the witnesses for being here today. I am really in awe of all 
of you and everything you've accomplished, and it's fantastic 
that you've inspired a new generation of Americans and beyond 
to pursue science and to look beyond our horizons.
    One of the major--and this is something that the gentlelady 
from Michigan touched on a little bit. But one of the big 
challenges that you had to overcome was the huge volume of data 
and--that was generated and how it had to be transported 
because you couldn't use the internet to transport a lot of it 
and analyze. Dr. Cordova, can you talk a little bit about the 
need for new approaches to big data given the volume of data 
that we're seeing now and breakthroughs like these?
    Dr. Cordova. Yes, this is a great example that put into the 
spotlight. One of our 10 Big Ideas for investment is called 
Harnessing the Data Revolution, and it's really a response to 
this enormous challenge that we have not just in this field but 
in all fields of scientific endeavor and other endeavors now. 
And we need to be continually stimulating the imaginations of 
would-be proposers and grantees to think about how we're going 
to effectively do data analytics and data science on this 
enormous scale of data that we have. We have a lot of grant 
opportunities to propose for new kinds of platforms and ways of 
thinking about this.
    We're also working in collaboration with the private 
sector. We have, for one example, a collaboration with Amazon 
where they're putting in $10 million, we're putting in $10 
million to work on artificial intelligence and see where that 
can take us in looking at how to do data science better.
    And in our new convergence accelerator, we have a fast 
track to try to get a platform where people can access 
databases that may look completely different and actually kind 
of speak different languages. How do we interrogate them so 
that the average individual can go in there and say, I can 
understand how to use this database and this one and this one, 
and put them all together in order to synthesize a new 
knowledge from and extract the answer to new questions.
    It's just an enormous challenge that our society, because 
it is technologically advanced, now has, and I think this 
illustration of the EHT project really puts that in focus. 
We're not just talking about 15 terabytes a night, which is 
what we expect on a telescope like the new one we're building 
in Chile, the LSST, but we're talking about much more.
    Ms. Wexton. And related to that I guess or as a part of 
that, I understand, Dr. Bouman, that the computer algorithms 
that were used to construct the image that was--that they 
leveraged open-source software, is that correct?
    Dr. Bouman. Yes, that's correct.
    Ms. Wexton. So I would ask everyone on the panel, what in 
your view is the value of open-science practices such as making 
computer codes and raw data available to the public? How does 
that help spur innovation?
    Dr. Bouman. Yes, so the algorithms, the code that we write 
to make images of black holes to model to extract the mass, 
many different aspects of the project we leveraged open-source 
software. And without this, you know, it would've taken us many 
more years to develop the tools necessary to do this. So we 
gained a lot. And if you look at the--basically the tree of 
contributors toward the project, it's not just the--tens of 
people, it's not hundreds of people in our collaboration but 
it's thousands of people that have really contributed to making 
this project through open-source software. And so I think it is 
really essential.
    And in giving back to the community and also trying to 
expedite, you know, these results and acceptance of results, 
we've also made our code and algorithms available through open-
source software online, along with the data that we used to 
make the picture so you can go off and develop your own methods 
to try to make a picture of a black hole as well. And so we are 
in big support of open-source software and pushing and 
continuing to do that.
    Ms. Wexton. Thank you. Dr. Lonsdale, do you concur with 
that?
    Dr. Lonsdale. I fully concur with that, yes. I think it's 
been a tremendous accelerant for our work. It's made the work 
much more efficient, much more cost-effective to be sharing 
these kinds of codes and--through the open-source mechanism.
    Ms. Wexton. Dr. Doeleman?
    Dr. Doeleman. Go ahead.
    Ms. Wexton. OK. Very good.
    Dr. Cordova. I just would love to give you a recent example 
of where open data has really increased discovery. I recently 
visited Princeton University, and two young astrophysicists 
there took the entire database from the first two runs of the 
LIGO observatory that discovered gravitational waves, and with 
their own computer there and their own imagination and brains, 
they went through the entire data sets and discovered six more 
emerging black hole binary sources, which the original team had 
not found, but just because they had their own kinds of 
algorithms that they had developed to reduce the noise. The 
potential of releasing data and of course software is just 
enormous for discovery.
    Ms. Wexton. Thank you.
    Dr. Doeleman. Would you mind if I said one more----
    Ms. Wexton. I will inquire, but Madam Chair says it's OK, 
so yes.
    Dr. Doeleman. I would say often people say--like Newton, 
you know, said he stood on the shoulders of giants, a couple of 
giants. But with open-source software, many hands make light 
work, and so you can get thousands of people helping. And I 
would also add just very quickly that it's a way to get buy-in. 
It's a way to make people feel like they're part of something 
like this. So the people that wrote the libraries like, you 
know, Num Pi or Astro Pi that we use just to get a little wonky 
and some of the software that we use, they can look at this and 
feel a little sense of ownership, that they're part of it, 
right? So when you get such a result like this, and many people 
have contributed, everyone sees their self in this kind of 
project.
    Ms. Wexton. Thank you very much. Thank you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. McNerney?
    Mr. McNerney. Well, I thank the Chairwoman for holding this 
fun hearing. I want to thank you, Dr. Cordova, for your 
leadership in science. I want to thank Dr. Doeleman, Dr. 
Lonsdale, and Dr. Bouman, for your dedication and hard work. I 
know how hard science is. You've got to spend a lot of hours 
alone in the lab and in front of your computer screen. When 
you're in college, your friends are out partying. After 
college, they're out making money. But they don't understand 
the kind of reward you get when you make these kind of 
discoveries, so thank you for your hard work.
    I studied differential geometry and general relativity in 
grad school, so it was particularly rewarding to see these 
images.
    Because of your hard work and the hard work of many 
dedicated scientists who are now, for the first time, able to 
create a definitive image of a black hole, well, we can't see 
black holes but we can see the effect of black holes, and we 
need to think of black holes as something bigger than 
ourselves. It's a punchline.
    So this announcement was also a monumental moment for STEM 
education, which forms one of the cornerstones of the United 
States educational system. Dr. Cordova, exciting advances in 
science often inspire students to pursue STEM careers. However, 
not every scientific breakthrough gets this kind of attention. 
What steps is the NSF taking to engage young people when 
exciting discoveries are made in other fields?
    Dr. Cordova. Thank you, Congressman, for that question, and 
thank you for always being a partner with NSF on its trips to 
both Poles and to the adventure of scientific discovery 
globally.
    NSF has many, many programs to stimulate the imagination of 
young people. Some of the particular programs are Computer 
Science for All, or CSforALL it's called, which gets young 
people with the imagination of a Dr. Bouman at an early age 
involved in having the computer skills and literacies to go on 
and then go in any direction that they want, in science, 
engineering, finance, whatever.
    We have a lot of programs to increase inclusiveness and 
diversity of the STEM workforce at all ages. We have programs 
to advance women and underrepresented minorities through the 
pipeline of academia and beyond. It's a major emphasis of ours.
    In this particular discovery, I just have to credit the 
people that are in our Office of Public Affairs for seizing on 
what it would do to the imaginations of everybody, young 
people, older folks around the world, and realizing very early 
on, when you are submitting your first papers, that this was 
going to be the discovery which, when other people saw it, 
would just absolutely mesmerize. There would be a world pause 
to say, wow, you know, did that really happen?
    And they just coordinated in a way to organize really the 
entire world. There were I think eight press conferences 
simultaneously around the world to announce this. It was just a 
major thing. Now, we can't do that every day. We don't have the 
workforce to be able to do that, but----
    Mr. McNerney. Well, I'd like to ask another question now--
--
    Dr. Cordova. Yes.
    Mr. McNerney [continuing]. If you don't mind too much. 
Thank you.
    Dr. Doeleman, did you use deep learning or other AI 
approaches in developing this image?
    Dr. Doeleman. Well, I am--I'll give you a quick answer, and 
then I'd like to defer to Dr. Bouman on that. We didn't 
necessarily use artificial intelligence or deep learning as 
such. We did use very forward-looking new algorithms. So we 
created this tension in the program where we used traditional 
methods using radio astronomy, but also new methods invented 
purposefully for these data. And when we got corroboration 
between them, that was powerful evidence that we were on the 
right track. But we look forward to using these new kinds of 
techniques, deep learning, AI as we move forward in some of the 
videomaking that we plan on doing. But maybe Katie--or Dr. 
Bouman wants to----
    Dr. Bouman. Yes. As Dr. Doeleman said, it was very 
important that--for these first results we were as confident as 
possible in them and so we had many different methods, both 
traditional and new methods that we had developed 
independently, and we actually imaged independently. And when 
we saw the same structure out of all--both of them, then we 
were very confident.
    We have explored other machine-learning and deep-learning 
techniques for making images of black holes. However, we--this 
data was so amazingly beautiful that we didn't actually need 
these very complicated methods to get something robust out of 
it, so we actually decided to pare down and do basically the 
algorithms that we were most confident with in the community 
and had most acceptance within the community because they 
produced beautiful results themselves. And we actually liked it 
when we didn't have to impose as much assumptions into the 
problem.
    And so I think moving forward, as we get harder and 
harder--data that is harder to work with, it will be essential 
that we merge in these new computational methods, deep-learning 
methods, other AI techniques with the data to get the best 
results. But for this result we found it wasn't necessary and 
so chose not to use them.
    Mr. McNerney. Well, thank you. I'm going to just ask one 
quick question. Could you possibly describe how you felt when 
you first saw that image on your screen?
    Dr. Bouman. So I think we all have probably different 
stories for this, but I was personally in disbelief. You know, 
we had worked for years developing the methods, testing them, 
making--you know, but until you saw--we all kind of crammed 
into a little room, very hot, it was June, and we all pressed 
go on our computers at the same time. We all had an imaging 
script ready to go. And as the image--it just like started 
appearing, this ring shape, and I think none of us were really 
expecting that to happen. You know, we had for years been told, 
oh, you would--we would expect to get a ring, but you never 
know.
    Everything--there's always something that goes wrong, 
right, so seeing something like that just appear on the screen, 
I kept going between excitement, awe, disbelief, and just 
hoping that it wasn't some cruel joke that was being played on 
us and it wasn't real data. So it took me a month before I was 
convinced it was real, but I was very excited. We were all very 
excited.
    Mr. McNerney. Yield back.
    Chairwoman Johnson. Thank you very much. Dr. Foster?
    Mr. Foster. Thank you, Madam Chairman, and thank you to our 
witnesses.
    I have to say that, you know, this hearing has brought back 
a lot of memories to me. I was fortunate enough in my career in 
science maybe 2-1/2 times to have been at that screen seeing 
the results of your data analysis and learning something that 
previously was only known to, you know, your data and to God. 
And so it is an incredible feeling.
    I remember the first time--my Ph.D. thesis was the search 
for proton decay, and for my thesis we built and designed and 
did the data analysis for a giant detector in a salt mine to 
look for proton decay, which was confidently predicted by the 
huge majority of theoretical physicists. And so we had multiple 
data analysis programs, and mine ran a lot faster than everyone 
else's, so I knew the answer first.
    And so when we saw the first few days of data, realized 
that we were seeing neutrinos at the expected rate and not a 
sign of proton decay, you just sort of sit back in your chair 
and say, wow, all of these theorists were wrong.
    About 160,000 years ago, a supernova blew off in the 
greater Magellanic cloud, and for 160,000 years the burst of 
light and the burst of neutrinos traveled toward the Earth and 
arrived in 1987. And where the signal was seen optically by the 
astronomers and at the same time in our underground detector 
what we saw neutrino burst. So at that time we were also 
limited by data transmission. And one of our collaborators 
drove down to the mine underneath Cleveland and then took the 
actual magnetic tape, which is how you move data, drove it to 
Ann Arbor where the analysis computers were, spun the tapes, 
did the analysis, and then realized that, yes, indeed, we had 
seen the neutrino signal and learned a lot about these 
incredible explosions.
    I guess the third time was when I was working on the giant 
particle collider at Fermilab and I was looking for the 
discovery of the top quark into the decay mode of electron and 
muons. And so I had something that--looked every night, would 
spin through the interesting events on the last night's data 
and saw one morning when I was drinking my coffee that in the 
previous night we had seen an acollinear muon and electron 
event with enough energy that it pretty much had to be the 
decay of a top-antitop with a top mass of about 170 GEV. And 
so, you know, you see this thing and say, my gosh, that's it. 
And that's why you get into this business. I understand that 
smile that's on your face.
    Before I forget, I would like to ask unanimous consent to 
enter into the record of this hearing the entire author list of 
your publication. You know, it is a tough thing to try to, you 
know, spread the glory for something like this appropriately 
because you have everything from the technicians that stay up 
all night and repair the circuit boards when they break in the 
middle of the night to the people that are really good at 
giving talks and so they always get sent to the big 
conferences, and then--it's a tough thing, and it's wonderful 
to have people with the entire range of skills on the author 
list. So I'd ask unanimous consent if it's----
    Chairwoman Johnson. So ordered.
    Mr. Foster. Thank you. And let's see. In my copious minute 
and a half I have left, I'd like to talk a little bit about, 
you know, the way forward on this, you know, what additional 
facilities, you know, if you could, you know, ask for, you 
know, a doubling or tripling of the effort in this area, you 
know, what would be the top of the list of ways to really 
expand your capabilities to do more of this kind of observation 
and analysis?
    Dr. Lonsdale. So I think very near the top of the list is 
additional telescopes because they improve the fidelity of the 
data, will allow us to see fainter things in a picture like 
this. This particular object has a really spectacular jet of 
material coming out of it. The only reason you can't see it in 
this picture is because the dynamic range of the image, the 
brightest to the faintest isn't big enough, and one of the ways 
that you can improve that is by adding more telescopes.
    And then, as Dr. Doeleman said, you know, increasing the 
amount of data that we can take increases the sensitivity and 
then going into space is the obvious next step because then you 
can get a telescope as big as you can space your spacecraft.
    Mr. Foster. And what is the scaling of your resolution with 
the baseline----
    Dr. Lonsdale. It's one-to-one. If you double the baseline, 
you double the resolution of your imaging.
    Mr. Foster. All right. And so you're not statistically 
limited----
    Dr. Lonsdale. You----
    Mr. Foster [continuing]. For at least as long as you have a 
handful of satellites?
    Dr. Lonsdale. Yes, it's actually----
    Mr. Foster. Or additional telescopes.
    Dr. Lonsdale. It's a fairly complicated tradeoff. If you 
have a low-Earth orbiting satellite, then it will get you a lot 
of information very quickly but not such high angular 
resolution. But if you have something further out, it gathers 
data more slowly but has higher resolution.
    Mr. Foster. OK. And just one quick question. Did you 
publish the four pictures that got averaged to the final?
    Dr. Doeleman. Yes. So----
    Mr. Foster. You did. OK.
    Dr. Doeleman. In the publication you see everything. Let me 
add one thing to what Dr. Lonsdale said. You can have 
telescopes, you can have satellites in orbit, you can do higher 
bandwidths and you can go higher in frequency and sharpen the 
image, but what I've learned in this project is it's all about 
the people. You know, you can have the fanciest equipment that 
you want, but if you don't have ingenious early-career 
scientists like Dr. Bouman and her colleagues, if you don't 
have people who are visionary in trying to see what they can 
do, if you don't push the data in new directions--and having 
the data is not always the final answer. So the other thing 
that I think we need is--I would say is an influx of positions 
that we can advertise to get the best and the brightest working 
on these new data sets.
    Mr. Foster. Thank you much. Among other things, making me 
have a few tinges of regret at leaving science and getting into 
this crazy business. Thank you all. I yield back.
    Chairwoman Johnson. Thank you very much. Some of us are 
glad you did.
    I'm going to take the privilege of asking one final 
question before we end. You have mentioned the international 
collaboration, and we all know how important that is. But what 
are some of the key contributions made by the international 
partners involved in the project?
    Dr. Doeleman. Thank you for that question, Chairwoman. So, 
as I said before, different telescopes are in different 
regions, so sometimes it naturally falls to the agencies or the 
institutes in that region to care for or outfit that particular 
telescope. So, for example, in Spain, one of our key telescopes 
that provides an outrigger that fills out this Earth-sized 
virtual lens was outfitted and maintained by the Europeans. And 
they're also establishing a new telescope in France, which will 
similarly round out the array. The Taiwanese are also working 
on the Greenland telescope, which is going in that area, and 
they're shouldering most of the burden there. And also we had 
buy-in from the European Research Council to build out some of 
the instrumentation that was deployed at all of the telescopes. 
So in very key ways we levered the international resources, not 
just the people but the resources, to build out the array.
    Chairwoman Johnson. Yes, Doctor.
    Dr. Lonsdale. I'd like to add to that the work that we do 
at my observatory in correlating the data, combining the data 
streams, that is done also at the Max Planck Institute for 
Radio Astronomy in Bonn, Germany. And we've been close 
collaborators with that group for decades in fact, and they're 
part of this VLBI community that I had mentioned and we--and 
the availability of a whole other team of people working on the 
correlation so we could do definitive cross-comparisons between 
what we were getting and what they were getting was an 
essential part of the data validation process that was carried 
through many different stages.
    Dr. Bouman. Yes, just building on that, since we were 
building this new instrument that we had never used before, we 
needed to be very careful and test and make sure that every 
stage of the pipeline was getting a correct answer. So each 
stage from the correlation that Dr. Lonsdale just talked to, to 
data processing to imaging to model fitting and theory, each of 
these actually we developed different pipelines, different code 
bases, or different methods to check each other. And in all the 
cases that I can think of there was always an international 
method or group that kind of spearheaded one of those at least. 
And so I think it was really essential that we had these 
independent tests of each other, these crosschecks to make sure 
that our instrument was actually working as we expected. And 
that required the help of our international collaborators.
    Dr. Doeleman. Madam Chairwoman, if I could add one thing, 
I'd be remiss, when you make lists like that, you always forget 
someone, right? I would also point out that the Japanese 
colleagues brought expertise in the area of imaging and also 
really helped phase up the ALMA array, the array that Dr. 
Cordova described. Our Chilean colleagues have worked very 
closely with us on ALMA and outfitting that telescope. In 
Mexico we had huge help from the institutes there with the 
Large Millimeter Telescope on top of Sierra Negra. And also 
in--from the Chinese, they also invested in the East Asian 
Observatory, which brought us the James Clerk Maxwell Telescope 
on Mauna Kea in Hawaii. So this really was a--truly a global 
effort.
    Chairwoman Johnson. Thank you. Any other comments?
    Dr. Cordova. Since we're coming to the end of this session, 
we want to mention about the Diamond Achievement Award that NSF 
gave the EHT team and Dr. Doeleman accepted on--a couple of 
evenings ago. So this is the highest award for really 
remarkable achievement that we can give. And of course diamonds 
spark all sorts of things in our imagination.
    But I wanted to share with you something that I read in a 
book that's already been written and published about this 
project, a Scientific American writer named Seth Fletcher lived 
with this team for 6 years and he went all over the world with 
them, and he has a quote from Shep, who--they were at a very 
critical point in the observations, lots of things going on, 
and apparently Shep held his head and he said, ``I'm under so 
much pressure I feel like I'm going to be squeezed into a 
diamond.''
    And that's when we decided we needed to call this award the 
Diamond Award because to reach out to all those people, all 
those scientists that--engineers that feel like they're under 
tremendous pressure and they may become diamonds, that 
sometimes they actually do become diamonds.
    Chairwoman Johnson. Thank you very much.
    Before we bring the hearing to a complete close, I really 
want to thank all of you for being here. It's been a tremendous 
hearing, and I think you got that indication with the 
participation and the enthusiasm. I think you've rubbed some of 
yours of onto us.
    The record will remain open for 2 weeks for additional 
statements from Members or any additional questions you may 
have or for additional testimony.
    The witnesses are now excused, and our hearing is 
adjourned.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
